<html>
<title> - [H.A.S.C. No. 109-97] U.S. MILITARY TRANSITION TEAMS IN IRAQ</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 109-97]

                 U.S. MILITARY TRANSITION TEAMS IN IRAQ

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            DECEMBER 7, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES



                     U.S. GOVERNMENT PRINTING OFFICE

32-990 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
MAC THORNBERRY, Texas                MARTY MEEHAN, Massachusetts
JOHN N. HOSTETTLER, Indiana          SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      VIC SNYDER, Arkansas
JIM RYUN, Kansas                     ADAM SMITH, Washington
JIM GIBBONS, Nevada                  LORETTA SANCHEZ, California
ROBIN HAYES, North Carolina          MIKE McINTYRE, North Carolina
KEN CALVERT, California              ELLEN O. TAUSCHER, California
ROB SIMMONS, Connecticut             ROBERT A. BRADY, Pennsylvania
JO ANN DAVIS, Virginia               ROBERT ANDREWS, New Jersey
W. TODD AKIN, Missouri               SUSAN A. DAVIS, California
J. RANDY FORBES, Virginia            JAMES R. LANGEVIN, Rhode Island
JEFF MILLER, Florida                 STEVE ISRAEL, New York
JOE WILSON, South Carolina           RICK LARSEN, Washington
FRANK A. LoBIONDO, New Jersey        JIM COOPER, Tennessee
JEB BRADLEY, New Hampshire           JIM MARSHALL, Georgia
MICHAEL TURNER, Ohio                 KENDRICK B. MEEK, Florida
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
CANDICE S. MILLER, Michigan          TIM RYAN, Ohio
MIKE ROGERS, Alabama                 MARK E. UDALL, Colorado
TRENT FRANKS, Arizona                G.K. BUTTERFIELD, North Carolina
BILL SHUSTER, Pennsylvania           CYNTHIA McKINNEY, Georgia
THELMA DRAKE, Virginia               DAN BOREN, Oklahoma
JOE SCHWARZ, Michigan
CATHY McMORRIS RODGERS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
BRIAN P. BILBRAY, California
                   Robert L. Simmons, Staff Director
               Stephanie Sanok, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                 Regina J. Burgess, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, December 7, 2006, U.S. Military Transition Teams in 
  Iraq...........................................................     1

Appendix:

Thursday, December 7, 2006.......................................    45
                              ----------                              

                       THURSDAY, DECEMBER 7, 2006
                 U.S. MILITARY TRANSITION TEAMS IN IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Weldon, Hon. Curt, a Representative from Pennsylvania, Committee 
  on Armed Services..............................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     6

                               WITNESSES

Flynn, Maj. Gen. George J., Commanding General, Training and 
  Education Command, U.S. Marine Corps...........................     8
Ham, Maj. Gen. Carter F., Commander, 1st Infantry Division, Fort 
  Riley, U.S. Army...............................................     9
Lovelace, Lt. Gen. James J., Jr., Deputy Chief of Staff, G3, U.S. 
  Army...........................................................    10

                                APPENDIX

Prepared Statements:

    Flynn, Maj. Gen. George J....................................    54
    Ham, Maj. Gen. Carter F......................................    59
    Lovelace, Lt. Gen. James J., Jr..............................    62
    Skelton, Hon. Ike............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Langevin.................................................    71
    Mr. Taylor...................................................    71
                 U.S. MILITARY TRANSITION TEAMS IN IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, December 7, 2006.
    The committee met, pursuant to call, at 10:11 a.m., in room 
2167, Rayburn House Office Building, Hon. Curt Weldon 
presiding.

 OPENING STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
           PENNSYLVANIA, COMMITTEE ON ARMED SERVICES

    Mr. Weldon. The full committee hearing will come to order, 
and I have the honor on my last hearing of chairing at least 
the opening of this hearing on behalf of Chairman Hunter, who 
is on his way here, and with the approval of my good friend and 
ranking member, Mr. Skelton, I would like to make some opening 
comments.
    I guess there is only one thing more embarrassing to a 
politician in Congress than getting your American Association 
of Retired Persons (AARP) membership card when you turn 50, and 
that is being presented this packet from the United States 
Association of Former Members of Congress. Because it finally 
sinks in--and you all will have to go through this one day. It 
finally sinks in that you are now a former Member, and so I 
have my card.
    I will not be able to fight you for parking spaces except 
in the horseshoe, but I will be able to come on the House floor 
and hassle you because I am not going to be a lobbyist, and I 
have no intention of lobbying because that is not my forte, but 
I will be around to be with my good friends.
    And so I wanted to make a few comments after 20 years, now 
as a former Member--soon to be--of the importance of this 
committee and the work that I have seen done for 20 years in a 
bipartisan manner.
    First of all, Chairman Hunter has been absolutely 
outstanding. There has been no individual more dedicated to the 
individual soldier and his or her welfare than Duncan Hunter: 
everything from making sure that we were doing the proper 
response on uparming Humvees, traveling over the theater, 
assigning staff to go out and meet with industry leaders.
    Duncan left no stone unturned. He is a tireless advocate 
for the warfighter and making sure that our soldiers, sailors, 
Marines, and airmen have the best equipment, the best training 
and the best technology that money can provide; and I guess 
that comes from both his combat experience and the experience 
of his sons. And it is going to be a sad loss when Duncan 
leaves the chairmanship for the ranking membership, but we have 
a good and decent and fair man coming in in January.
    Perhaps no one do I have a higher respect for in terms of 
issues involving this committee than Ike Skelton. When I came 
and sat down there in the first row and used to look up here at 
these gray-haired, old men and think to myself--actually, Pat 
Schroeder was here, too, so there were women here--I did not 
think I would ever make it to the day to get up on the top row. 
But Ike was one of those people you could always look to to do 
the right and straight thing for what was important for our 
troops.
    Ike's leadership on education and training issues is one 
that will go down in the history books. He has done more 
unseen, behind-the-scenes work for the education, the training, 
and the professionalism of our troops than, I think, any other 
one single Member of Congress in the history of the Nation.
    And so, Ike, you are going to be an outstanding Chair. I 
wish I could serve under you and with you, but I will be here 
in spirit.
    For my other members, I have varying degrees of thoughts. 
Some of them are my best friends. I cannot tell you all of the 
stories of Solomon Ortiz and Silvestre Reyes and Roscoe 
Bartlett and the rest of my training partners because it would 
be X-rated--no, I am only teasing--but from the first meeting 
with Qadhafi in the tent in Libya, and for the first time in 40 
years where we had a chance to break ground and open the door 
for what is now a normalized relationship to our meetings with 
the North Koreans on two occasions where Condoleezza Rice did 
everything she could to stop us.
    But you know what? In the end, the Constitution prevailed, 
and Condoleezza Rice lost because this body has the ultimate 
responsibility of checks and balances, and no Secretary of 
State or no Secretary of Defense, regardless of Democrat or 
Republican, has the ability to silence and muzzle the people's 
body; and even though she pulled the rug on the first plane, we 
got that plane because Colin Powell and Andy Card overruled 
her.
    She won the second battle, but when they wanted my vote for 
the Medicare resolution, they understood that I was absolutely 
incensed. I would not talk to them because they denied this 
Congress the appropriate role of trying to support the 
Administration while bringing peace to the Korean peninsula. 
And, God willing, I will be going back to North Korea within 
the next two months to continue that dialogue, again supporting 
our President's policies.
    What I have seen most about this committee is the fact that 
we have to continue the process of checks and balances, and it 
does not matter whether you have a Democrat President or a 
Republican President. The bureaucracies in both parties seek to 
do the same thing in forwarding the will of the Congress; and 
we have a responsibility--and you who will be here next year 
have a responsibility--to do what we have done so proudly for 
the past 20 years that I have been here.
    In the next quarter the V-22, the first unit of Marines, 
goes into combat. That program would not be here if it were not 
for this Congress because the Secretary of Defense and leaders 
at the time cancelled the program that the Marines said was 
absolutely essential. Well, three months from now, that unit 
will be in combat, and our V-22s will be in action, protecting 
our Marines.
    The Predator would not be armed because it was this 
Congress, not the Central Intelligence Agency (CIA) or not 
Special Operations and the Air Force; it was this committee 
that required and mandated that the Predator be armed because 
of what we saw as the future.
    Our readiness would not have been what it was if Ortiz and 
Reyes had not joined in a whirlwind tour where we did 15 states 
and 24 military bases in 4 days. They said it could not be 
done, but we did it to highlight not the admiral's quarters or 
the general's lunchrooms, but to showcase the barracks where 
the soldiers were taking showers with raw sewage floating 
around their feet, where there were schools with asbestos 
peeling off of the walls for the children of the kids--for the 
children of the people in armed services. The spoiling of the 
concrete on the runways that threatened the safety of our 
aircraft, the problems with housing and maintenance and 
readiness and that 15-state tour with 24 bases helped to allow 
us to increase readiness funding by $5 billion in that 1 year.
    The President is given the credit for the work on missile 
defense. It was not President Bush. It was this committee that 
in 1998, two years before he was elected, passed H.R. 4, with 
my good friend John Spratt as a lead cosponsor with 35 other 
Democrats. We passed that bill in the House with a veto-proof 
margin in spite of the President's objections. That was in 
1998, and this committee was again the leadership.
    It was this committee in the leadership of the China 
technology scandal. They did not steal our technology; we gave 
it away as a wholesale auctioning-off. And as a member of the 
Cox Committee, I saw all of the classified evidence of how that 
took place; and that is why our vote was nine to zero. But our 
security was severely harmed by the transfer of that technology 
to China in the mid-1990's even though the administration tried 
to hide it by arresting Wen Ho Lee and then nine months later 
releasing him.
    The Arrow program for Israel would not be in existence 
today if it were not for this committee's standing up and 
funding Arrow as opposed to the Libyan fighter when Duncan 
Hunter and I first did that letter 20 years ago.
    The privatization of housing was instigated by this 
committee. The personnel issues that give our military the 
quality of life they have today in their pay and benefits were 
largely instigated by this committee.
    The Cooperative Threat Reduction program was maintained 
because of bipartisan support of this committee. 
Electromagnetic Pulse (EMP) would not be the issue it is and 
will be for the next 15 years without the efforts of this 
committee, as well as nuclear strategy concerns; and we would 
not have been transferring that technology to our first 
responders if we had not passed my resolution back in 1998 
crediting the Gilmore Commission, which issued three reports 
before 9/11. The 9/11 Commission takes all the credit, but 40 
percent of their recommendations had already been made by the 
Gilmore Commission before 9/11 ever happened.
    The thermal imagers that our soldiers and military use 
today are now being used by firefighters in every firehouse and 
station in America. The transfer of technology continues. And 
it was this committee that traveled to Vienna to negotiate the 
framework to end the Kosovo War. It was Neil Abercrombie who 
led the effort on the Democrats' side and convinced Madeleine 
Albright, when we returned, and Strobe Talbott, that there was 
a way to stop the bombing and get Milosevic out of power.
    It was this committee, along with Jim Ryun of Kansas and 
Jim Saxton of New Jersey who joined me and six other Members of 
Congress--five Democrats and five Republicans--to lay the 
foundation for the G-8 countries to reach the agreement and to 
bring back the three prisoners of war (POW) that we were 
offered, but refused to go to Belgrade to pick up, because the 
Speaker and the State Department had asked us not to travel to 
Belgrade, and we abided by their wishes.
    And it was this committee, as I said, who opened the door 
to Libya and has continued with three successful trips, 
including a major conference a year ago with 29 other countries 
to bring Libya into the family of nations.
    It was this committee who had consistently reached out to 
try to achieve peace as opposed to having to send our 
warfighters into harm's way, but I want to also say that this 
committee has met with consistent challenges by administrations 
of both parties.
    Some would say that my problems this year were partly 
caused by me pushing the envelope. In fact, National Journal, I 
guess, summed it up best when they put me on their front cover, 
and they called me the ``Troublemaker'' in the last week of 
September. I guess that is my legacy in Congress; I am the 
troublemaker. But you know what? I would not have it any other 
way.
    I was happy to see Lieutenant Colonel Tony Shaffer when he 
came to me and told me that we had identified key cells of al 
Qaeda two years before 9/11 ever happened. The Defense 
Intelligence Agency destroyed Tony Shaffer's career even though 
he is a Bronze Star recipient. The only vindication for me, for 
Tony Shaffer--and you were all here for that hearing--is when 
CIA trashed him when they issued their report in mid-September, 
publicly releasing it before they even briefed us on the 
committee, saying Tony Shaffer was not worthy of having a 
security clearance.
    But on November 4th, two days before our reelection, 
Lieutenant Colonel Anthony Shaffer was brought back onto active 
duty. His security clearance has been restored, and he is now 
commanding a unit in operation today in Iraq.
    Isn't it amazing how, in the end, the truth prevails? This 
dedicated career military officer, trashed by the Defense 
Intelligence Agency, politically trashed by the acting 
inspector general, is now back on active duty; and his 
counterpart, who ran Able Danger, is now commanding the La 
Salle, our destroyer at sea, where Scott Philpott is doing 
great work on behalf of our Nation.
    What was their only crime? They told the truth. They told 
the truth that our government did not want to hear about--
evidence that we had--just like the government did not want to 
hear back in 1999 from this committee, that we needed to have 
an interoperable data collaboration system two years before 9/
11. The CIA refused it. Today, it is called the ``NCTC 
Operational.''
    I would challenge this committee and my good friend Ike 
Skelton in the future to make sure that we continue the 
aggressive oversight role. It was in 2004 that we--in 2003 that 
we first told the CIA, Solomon Ortiz and I, that Muqtada al-
Sadr was being funded by the Iranians with $70 million, and the 
CIA did not want to hear it. No one knew the name ``Muqtada al-
Sadr'' back then--today, it is a household name--just like they 
did not want to hear about Iran cooperating with North Korea, 
their nuclear program and the other acts of destabilizing Iraq. 
Today, it is all fact, and it is the reason why the election 
was so decisive this past November. This committee, again, was 
in the forefront of those issues.
    Mr. Incoming Chairman, I have a challenge for you because I 
think the ultimate vindication is yet to come for this 
committee. There was a book released last week, written by an 
award-winning journalist by the name of Peter Lance. I would 
encourage you all to get a copy of it. It is 670-pages long. 
Peter Lance is an award winner. He received five Emmys when he 
worked for ABC News and a Robert F. Kennedy award for 
journalism, and in his extensive documentation--it took five 
years--he tells the story that nobody wanted the American 
people to hear, that the man that Patrick Fitzgerald called in 
1997, and I quote, ``the most dangerous man I have ever met; we 
cannot let this man on the street'' was at one and the same 
time an agent for the Federal Bureau of Investigation (FBI), an 
agent for the CIA, who joined our military and was transferred 
to our Special Warfare Command J.F. Kennedy School at Fort 
Bragg, North Carolina.
    So now we have the information out that no one wanted to 
hear, the fact that we had him on our payroll in the military, 
a guy that Patrick Fitzgerald has said was the most dangerous 
man in the world, who today is locked up in a Colorado prison 
where the Justice Department will not allow anyone to talk to 
him, who was at one and the same time an agent for al Qaeda and 
bin Laden while he was working within the military of our 
government, training our Special Operations officers at Fort 
Bragg, a command officer getting access to classified 
information he should never have had.
    It is all here, and it is all documented in the 670-page 
report that is going to shake this country to its roots. And, 
you know, when we had that hearing on Able Danger and the 
staffers did not want those charts to come out because they 
said, ``Show us the beef! Show us the beef!'' It was not about 
Mohamed Atta alone, and I said that then; it was about Ali 
Mohamed. If you go back and check the charts--and I have those 
1999 charts, and one of them is in the book--Ali Mohamed is on 
every chart, and he is linked into bin Laden.
    So the man who was working in our Special Forces Command 
training school at Fort Bragg, the man who was an informant for 
the FBI, the man who was an informant for the CIA while working 
for bin Laden, who is now in jail in Colorado and who Patrick 
Fitzgerald has called the most dangerous man that he has ever 
met, is now in jail in Colorado. I do not think he has ever had 
a trial. When Peter Lance tried to interview him, both times he 
was refused, and the response, which is in a letter in this 
book, says, ``We think it will present security concerns for 
the country.''
    This committee needs to continue to play the aggressive 
oversight role. As troubling as it is, that is the 
responsibility in the checks and balances of this country that 
this committee has to be the champion of.
    I am proud to leave this committee and the great members, 
outstanding members, who have always done the right thing; and 
I am proud, in the 12 years I served as subcommittee chairman, 
we never had one vote in any subcommittee that I chaired where 
a Democrat had to offer an amendment, not one. Marty, when you 
were Chair or a ranking member, Silvestre, when you were, 
Solomon, when you were, and John, when you were, not one split 
vote.
    That is the way this committee needs to operate, in a 
bipartisan manner that lets the Executive Branch understand 
that we will do what it takes to get the truth out and to 
confront those issues that need to be addressed even if they 
fly in the face of what is politically correct in the 
conventional wisdom that some would have us believe.
    So, with that, I am happy to be here until my good friend 
arrives, and I will now turn to my distinguished ranking 
member, Mr. Skelton.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Curt, thank you for your excellent comments. 
We thank you for them. There is a Scottish song that is to the 
tune of ``When Johnny Comes Marching Home,'' and the title of 
it is ``Johnny, I hardly got to know you.''
    Curt, thank you for your passion, your knowledge, your 
persistence, what you have meant to this committee. You have 
been a polestar for all of us. I just cannot thank you enough, 
but most of all, I know everyone joins me in saying thank you 
for your friendship through the years. It has been solid and 
sincere.
    As sailors would say, we wish you fair winds and following 
seas, and God bless you.
    Mr. Weldon. I thank the distinguished ranking member, and I 
would be remiss if I did not mention our staff on both sides of 
the aisle. We have the best staff in the Congress. They work 
well together. We rely on each other; there is no level of 
distrust. It is openness and candor, and that is the hallmark 
of the Armed Services Committee.
    I want to especially thank Doug Roach, who has been my lead 
staffer. He has been to some crazy places. If I asked any of 
you where Kalmykia was, you would say, ``I have no idea.'' 
Well, Doug can tell you where Kalmykia is because it was our 
stop on the way to Beslan.
    But, Doug, you have been an outstanding professional.
    I want to thank my personal staff and put it on the 
record--Russ Caso, a former Navy person who is my chief of 
staff; John Tomaszewski; Sarah Beatty; Chris Phelen; Margaret 
Lemmerman; and Yevgeny Bendersky--fantastic, hard-working 
individuals.
    And, with that, I have done enough of my swan song.
    So now we will turn to the business at hand, which is 
standing up robust, capable Iraqi forces as our top goal of the 
coalition of the Iraqi Government; and today, we have a 
distinguished panel of our transition team--Major General 
George Flynn from the Marine Corps, Commanding General, 
Training and Education Command; from the Army, Major General 
Carter Ham, Commanding General, 1st Infantry Division; and from 
the Army, Lieutenant General James Lovelace, Deputy Chief of 
Staff, G-3.
    In a meeting with President Bush this week, Duncan and our 
colleagues talked about his getting more Iraqi battalions in 
the hotspot areas on an accelerated basis for the combat 
operations experience, to test their capabilities and to gain 
confidence. Too many Iraqi forces are in relatively calm areas. 
Only about 35 to 114 Iraqi combat battalions operate in 
notoriously violent areas such as Baghdad and the Anbar 
Province, while over 30 other units are in quieter areas that 
experience 2 or fewer attacks each day.
    To ensure that Iraqi Security Forces are positioned for 
success and can benefit from much-needed combat experience, 
Coalition forces must help Iraqis develop key skills and 
capabilities. Military transition teams are advising the Iraqis 
on the unfamiliar challenges of counterinsurgency operations. 
They are also serving as a useful conduit to logistic support, 
intelligence information and combat support such as heavy 
artillery and air support the Coalition forces can provide.
    If we get the transition team piece right, the effort to 
produce capable, battle-tested Iraqi forces stands a greater 
chance of success. So the focus of today's hearing is the 
manning, training and equipping of these teams, and it comes at 
a time of renewed emphasis by the services--U.S. Central 
Command and the Multi-national Force-Iraq.
    Many experts share the belief that these Transition Teams 
are pivotal. The Army, to its credit, has met the demand for 
hundreds of Transition Teams. The dedication of an entire 
infantry division to train teams underscores the Army's 
emphasis on this effort.
    The Marine Corps continues to shoulder its fair share of 
this mission.
    In testimony before this committee last month, General 
Abizaid of Central Command signaled his intent to expand the 
size and capabilities of the teams, and the Iraq Study Group 
recently recommended increasing the number of U.S. trainers in 
Iraq to 10,000 or even 20,000.
    During his confirmation hearing earlier this week, incoming 
Secretary of Defense Gates asked a crucial question, and I 
quote, ``If our focus is on training and bringing up the Iraqi 
army, do we have enough trainers to do that job in Iraq?'' end 
quote.
    So the question before the committee today is just that: 
How many transition teams are required, how many personnel, and 
what skills do they need, and what training should they 
receive? This hearing comes at a good time to take stock of how 
the transition teams have evolved over the last two years and 
to reevaluate how best to organize this endeavor in the future.
    Recent media reports indicate that some team members feel 
that they are not receiving or providing the most relevant 
training or the right equipment. I hope the committee will hear 
how we can help you to strengthen the ability of the advisors 
to better train and secure Iraq's security forces. Only when we 
can successfully conclude such efforts can we be sure that the 
departure of American forces from the Iraq nation will not 
result in massive instability and violence.
    Before we turn to our witnesses, I, again, turn to 
recognize our good friend and ranking member, the gentleman 
from Missouri, Mr. Skelton.
    Mr. Skelton. Mr. Chairman, thank you, and I ask for 
unanimous consent to put my statement in the record at this 
point.
    Mr. Weldon. Without objection.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 49.]
    Mr. Skelton. I will be very brief. However, I would hope 
the witnesses would help answer the question, ``Should Iraqi 
unit performance be considered a reflection of the training 
teams' proficiency?''
    You know, I really worry about the situation in Iraq. Time 
marches on. I think time is of the essence, and here we are 
three and a half years into this effort, and we are now looking 
at doing a better job at training their forces. Where have we 
been for the last three and a half plus years?
    I also think the linchpin of the efforts in Iraq are the 
Maliki government's getting its act together and making 
substantial progress swiftly, working with you hand in hand 
swiftly. If not, we Americans and our Coalition partners are 
feeding a dead horse.
    Would you help enlighten us today, gentlemen? Because it is 
dire and serious. Thank you.
    The Chairman [presiding]. I thank the gentleman.
    Gentlemen, thank you for being with us this morning, and 
General Flynn, the floor is yours, sir.

  STATEMENT OF MAJ. GEN. GEORGE J. FLYNN, COMMANDING GENERAL, 
       TRAINING AND EDUCATION COMMAND, U.S. MARINE CORPS

    General Flynn. Chairman Hunter, Representative Skelton, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to report on the Marine 
Corps' efforts to train transition teams for Operation Iraqi 
Freedom and Enduring Freedom. Before I begin, I would like to 
thank the committee for your sustained support of our men and 
women in uniform, especially for those in harm's way.
    I have submitted a written statement that outlines the 
Marine Corps' approach to Transition Team training, and I would 
ask that it be included in the record.
    The Chairman. General Flynn, absolutely, and without 
objection, all written statements will be taken into the 
record, so feel free to summarize in the best way possible.
    General Flynn. Yes, sir. I would like to now highlight 
briefly some of the key aspects of our approach.
    Our transition teams advise, train and mentor Iraqi and 
Afghani security forces and provide access to Coalition 
capabilities such as fires, logistics, engineer, medevac, and 
intelligence operations. In order to do this, we assign quality 
Marines with the right skills and background to succeed. Our 
team members have the leadership, the combat skills and 
occupational specialty to live, work, operate, and fight with 
their Iraqi and Afghani counterparts.
    The key challenge we face in manning these teams is that 
there is no specific forcestructure for these mission 
requirements, and therefore, the teams must be manned from our 
existing personnel structure. They are all leaders in high-
demand specialties. As with all Marine Corps training, our 
Transition Team training is standards based. It is designed to 
capitalize on every Marine's being first as riflemen as well as 
taking advantage of our institutional understanding of the 
combined arms approach--the power of the Marine Air-Ground Task 
Force. The end state of our training is team members with 
cultural and language skills who have the ability to train and 
advise in all six battlefield functions and all lines of 
operations to include kinetic actions to eliminate insurgents 
and nonkinetic actions for engagement with the local populace 
and civilian leaders.
    Our transition team training is guided by our predeployment 
training guidance, and it is realistic with role players and 
live fire throughout. Just like our unit predeployment 
training, we use a building-block approach that is based on 
mission-essential tasks with assessment and feedback provided 
to operational commanders prior to deployment. Transition team 
training begins at home stations with individual skills and 
combat operation/environment training, and in the majority of 
cases, it moves to one of our training centers for mission-
execution training.
    Last, our transition team training is evolutionary. It is 
constantly being modified as the result of lessons learned and 
changes in the assigned mission and operating environment. In 
the future, our intent is to provide even more standardized 
training at our training centers. We currently have a revised 
training plan which we will be testing in January that should 
enhance the training currently being provided today.
    I look forward to your questions.
    The Chairman. Thank you, General Flynn.
    [The prepared statement of General Flynn can be found in 
the Appendix on page 54.]
    The Chairman. And General Ham and General Lovelace, do you 
have statements at this time? General Ham?

 STATEMENT OF MAJ. GEN. CARTER F. HAM, COMMANDER, 1ST INFANTRY 
                DIVISION, FORT RILEY, U.S. ARMY

    General Ham. Sir, if I may, Mr. Chairman and Congressman 
Skelton and members, again, thanks for this opportunity to come 
talk with you about how we are conducting transition team 
training at Fort Riley, Kansas.
    In June of 2006, the Army, Air Force, and Navy consolidated 
transition team training at Fort Riley in order to standardize 
the training and economize on the use of resources. Through 
December of this year, 50 teams--about 500 personnel--will have 
trained and deployed to Iraq from Fort Riley, and we have an 
additional 1,400 currently in training at the base now.
    The transition team training prepares teams to advise, 
teach, mentor Iraqi and Afghanistan security forces. Each team 
trains at Fort Riley for about 60 days. We train soldiers from 
the active Army, from the Army Reserve, from the National 
Guard, as well as sailors and airmen.
    Training consists of individual skills as well as cultural 
training advisor skills and collective tasks. Throughout the 
training period, each team member receives over 40 hours of 
formal classroom language instruction conducted by Defense 
Language Institute instructors. We train--we are currently 
training Dari for Afghanistan and an Iraqi dialect of Arabic in 
our training base. In addition to the formal classroom 
instruction, we exercise language skills in all of the 
vignettes and the training environments that the teams 
encounter each day.
    The training, as General Flynn mentioned, is modified 
frequently to meet the constantly changing conditions in 
theater. Recent changes include updating the training of 
improvised explosive device tactics, the recent introduction of 
countersniper training and the adaptation of tactics, 
techniques, and procedures developed by teams that are now in 
country.
    In the coming year, the 1st Infantry Division will train 
approximately 6,000 officers and noncommissioned officers. They 
will train teams of varying sizes and missions ranging from the 
11-person standard battalion transition team to teams as 
diverse as garrison support units that help Iraqi and Afghan 
forces establish and operate their own bases. Currently, the 
1st Infantry Division headquarters and the leadership of two 
combat brigades are dedicated to training these teams.
    About 75 percent of the trainers operating at Fort Riley 
have recent combat experience. In addition, we expect, as the 
teams rotate back at the completion of their mission, that a 
number of them will stay at Fort Riley to become part of the 
training cadre to ensure we are continually refreshing and 
updating the experience base. In addition to all of that, one 
of the assistant division commanders of the 1st Division, 
Brigadier General Dana Pittard, is forward-deployed in Iraq and 
is dual-hatted as the commander of the Iraq Assistance Group.
    The training at Fort Riley is vital to our missions in Iraq 
and Afghanistan, and the soldiers of the 1st Infantry Division 
are dedicated to fully supporting the combatant commander's 
mission requirements.
    I look forward to your questions and dialogue, and I would 
welcome members or your staff to come see us at Fort Riley to 
gain firsthand experience as to how we are conducting the 
training.
    Thank you, Mr. Chairman.
    The Chairman. General Ham, thank you.
    [The prepared statement of General Ham can be found in the 
Appendix on page 59.]
    The Chairman. General Lovelace.

 STATEMENT OF LT. GEN. JAMES J. LOVELACE, JR., DEPUTY CHIEF OF 
                      STAFF, G3, U.S. ARMY

    General Lovelace. Sir, very quickly, Chairman Hunter, 
Congressman Skelton, distinguished Members of Congress, first 
off, on behalf of the Secretary of the Army, Dr. Harvey, and on 
behalf of the Chief of Staff, General Schoomaker, I just want 
to say thanks. Thanks for your support. Thanks for the passion 
that Congressman Weldon talks about. It makes a difference. Our 
troops realize it, and day in and day out they realize your 
support for this very critical mission, this critical mission 
and the larger mission in whole that they are accomplishing in 
theater.
    I am here today--I am the G3; I am in charge of operations. 
There is not very much I do not touch.
    The institution of the United States Army, its resources, 
its leaders are all dedicated to this mission that we are 
talking about today. They are fully behind it. That is why we 
have dedicated a pretty sizable amount of resources here to 
ensure that our soldiers get what they need and not only what 
they have now, but in the future.
    We welcome this opportunity. There is a lot of mess out 
there, and it does a disservice when they talk about the 
quality of the leader in place that is in question. These are 
young men and women who raised their right hands and dedicated 
themselves to the oath of office to protect and defend the 
Constitution of the United States, to well and faithfully do 
their duties.
    They are reading in the paper these kinds of things that 
talk about who they are or how good they are not. These are 
great young men and women, and I think we have a great program 
offer, and I reiterate the opportunity to come out to either 
Twentynine Palms or out to Fort Riley, Kansas.
    And to Congressman Skelton's point, I think we are 
accomplishing the mission. We are getting our job done. It is 
maybe taking a little bit longer than people want, but these 
great young men and women in the breach each day are doing what 
is required of the combatant commander in theater.
    So I look forward to your questions.
    The Chairman. Thank you very much, General.
    [The prepared statement of General Lovelace can be found in 
the Appendix on page 62.]
    The Chairman. And gentlemen, thank you for being with us. 
The Study Group's recommendations and their discussion of the 
transition teams and also the initiatives that are coming out 
of the Pentagon and all the discussions, to some degree--
peripherally or in central part--refer to the Transition Teams 
and their importance to the stand-up of the Iraqi military upon 
which everything depends in terms of the security apparatus in 
Iraq. Let me ask you a couple of basic questions.
    If you are an Iraqi battalion, what do you have right now 
in terms of U.S. personnel, transitional personnel or advisory 
personnel, in your companies? If you are an infantry battalion 
or an armored battalion, what do you have embedded presently in 
the companies down to the company platoon level? What have you 
got?
    General Lovelace, can you pull that microphone up a little 
bit?
    General Lovelace. I will sit closer to it, sir. Is that all 
right?
    The Chairman. Okay.
    General Lovelace. Sir, the team composition, and it is in 
the written testimony, basically is about 10 to 15 people. The 
lowest that the teams go down to is to battalion level. They 
will have about 10 or so people in that formation who then work 
with that entire battalion--all right?--but not every battalion 
might necessarily merit--meaning, by that, because of their 
level of readiness--might or might not have a battalion team 
with it, and that is the status of play.
    I do not have a specific number right now of battalions 
that are covered, and I will be happy to get it for you.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Okay.
    What have you got if you are an Iraqi battalion? Let us 
presume you are in the Sunni Triangle or in Baghdad; you are 
making some contact with the adversary; you have got your 
companies deployed.
    With respect to the American presence, the American advisor 
presence, I take it you have got the team then in battalion 
headquarters, and that team has, among other things, the 
ability to call in direct fire/artillery fire to provide for 
medevac assistance; and I presume that means you have got 
choppers available for medevac. You have got some logistics and 
communications advice. What will you have?
    General Flynn, can you give us an idea of what an Iraqi 
battalion will have today in terms of the American presence on 
the ground with them?
    General Flynn. Sir, the teams that we are training that go 
with the Iraqi battalions are normally 11-man teams, and the 
composition is usually 2 infantry men, usually a relatively 
senior captain or a senior major and also a senior enlisted, 
and they also have a fires individual, somebody who is skilled 
in the art of calling in fires, both an officer and enlisted. 
We have logisticians, again an officer/enlisted breakdown. We 
also have two intelligence individuals and also a communicator 
and a corpsman.
    The other piece, sir, is a mission essential function (MEF) 
list right now in-house. Those teams are being boosted up to 
about 20 individuals to provide some of the drivers and 
additional communicators, but that is not part of the training 
package right now. We are not training a 20-man team leaving 
Continental United States (CONUS). We are training an 11-man 
team, and then they get augmented when they get in theater, 
sir.
    The Chairman. Okay. So there is a difference between this 
concept of having this team that is basically an advisory team, 
and also--it also gives you some leverage in terms of medevac 
and direct fire with battalion and the concept that is inherent 
in Special Forces where you have people that are cross-trained 
in disciplines of communications, weapons, et cetera, who 
actually train the indigenous personnel themselves.
    So this is essentially the training team you are talking 
about which, for practical purposes, it is an advisory team for 
the battalion leadership, and it does not go down to the lower 
levels, and it provides those leverages in those certain places 
like bringing in direct fire, medevac, et cetera.
    Is that a general description of what they do?
    General Flynn. Sir, these advisors do train, though. They 
mentor. And also by their presence, sir, they are setting a 
personal example by being there, but they just do not sit there 
and advise. They also have skill sets to be trainers and to 
teach some of these skills, sir. The logistician would teach 
how to do tactical logistics as well as enabling it, so I think 
they have a dual role.
    The Chairman. Okay. Gentlemen, do you gentlemen have 
personal experience watching the teams that are present in Iraq 
work with the Iraqi military? Have you been on the ground with 
them there?
    General Ham. Yes, sir, I have.
    The Chairman. Give us your assessment of how effectively 
they work.
    General Ham. Sir, quite obviously, the performance of the 
Iraqi units is across the spectrum, but the teams, in addition 
to their advising and mentoring role, do participate. They go 
with the units when they are with the Iraqi units, as they are 
conducting operations, so that they can bring to bear those 
effects that may be needed whether it is fires or air ambulance 
or other support, so they are out with the--they are out with 
the units, conducting operations.
    The Chairman. Okay. I have got a few other questions, but 
let us move down the line here to the distinguished gentleman 
from Missouri, Mr. Skelton.
    Mr. Skelton. Mr. Chairman, thank you.
    General Lovelace, to your knowledge, when did we begin 
training Iraqi troops?
    General Lovelace. Sir, the training of the Iraqi soldiers 
started almost immediately in 2003. It was done at a very small 
level, and in or around the summer time frame is when they 
disbanded the military and began to stand it back up.
    They started with a very humble beginning of about two 
battalions; therefore, it was handled internally by forces 
being in theater. And so, as we walked our way forward into 
2004, as the size of the Iraqi security force began to grow, we 
moved from what was a national guard into an actual active 
force of the Iraqi security force, and the numbers began to 
grow.
    It was previously handled inside the Army specifically. I 
would have to defer to the Marine Corps here how they did it, 
but when we had Pete Chiarelli who had command of the 1st 
Cavalry and then the 1st Infantry Division.
    Sir, then what happened was that they were handling that 
mission essentially internally. Only then when it became a 
little bit more visible, which was some extensive request for 
forces by General Casey that was codified in February of 2005, 
did then it become very visible as far as the external 
commitment that I think we are talking about today.
    So that is a quick Reader's Digest rundown, sir, if that is 
helpful.
    Mr. Skelton. General, how many Iraqi forces are fully 
trained and capable of sustaining themselves today?
    General Lovelace. Sir, let me do this. I probably have the 
information with me.
    I do not have that specific----
    Mr. Skelton. Could you give me your best judgment?
    General Lovelace. Sir, right now, they have--when you are 
talking about Iraqi forces, I am assuming that you are talking 
about the police and the army.
    Mr. Skelton. I am talking about those that can operate on 
their own and go after the insurgents or the sectarian violence 
or whoever is out there.
    General Lovelace. Sir, there are about 80-plus battalions 
at this time who are able to operate in the lead.
    Mr. Skelton. How many are there all together in the 
training program today?
    General Lovelace. Sir, when we have got it, I will get 
right back with you.
    Mr. Skelton. Well, can you tell us before the end of the 
hearing?
    General Lovelace. Oh, yes, sir. I am saying somebody behind 
me is going to hand me the answers.
    Mr. Skelton. One last question.
    Generally, should the Iraqi unit performance be considered 
a reflection of the training team's proficiency?
    General Lovelace. Sir, I am taking a while just to think 
about how to answer that. I mean, it is a lot----
    Mr. Skelton. Just tell the truth. That will work.
    General Lovelace. Sir, that is what I am about to do.
    Sir, any job----
    Mr. Skelton. I have Fort Leonard Wood in my district.
    General Lovelace. I am sorry, sir?
    Mr. Skelton. I have Fort Leonard Wood in the 4th District 
of Missouri, and the product that those drill sergeants put out 
is a reflection as to how good those drill sergeants are. You 
will agree with that?
    General Lovelace. Sir----
    Mr. Skelton. Let me ask you again.
    Should an Iraqi unit's performance be considered a 
reflection of the training team's proficiency?
    General Lovelace. Sir, I think that the training team is 
trained and equipped, and what they are capable of doing in 
some measure is a reflection of the capability of the 
transition teams. That is correct.
    Mr. Skelton. Thank you, Mr. Chairman.
    Mr. Abercrombie. Excuse me.
    Mr. Skelton, I did not realize you were going to give up. I 
am a little confused here. The gentleman said that he was going 
to give you an answer on these numbers. What the hell----
    Mr. Skelton. He will in a few moments.
    Mr. Abercrombie. He said a few moments. That was a few 
moments. You have got somebody right there. They are writing 
numbers down there. We do not even know what we are talking 
about.
    Mr. Skelton. Has someone given them to you yet, General?
    General Lovelace. Sir, nobody has given me numbers yet, no.
    The Chairman. When the General gets the numbers that the 
gentleman from Missouri requested, we will give him every 
opportunity to----
    Mr. Skelton. Just raise your hand, all right?
    General Lovelace. Sir, I will. I am not trying to keep any 
information from anybody. I mean, I just do not have it----
    The Chairman. General, get closer to the mike. We cannot 
hear you.
    Mr. Skelton. Just raise your hand when you get the numbers, 
please.
    The Chairman. Okay. The gentleman will provide that when he 
receives it.
    The gentleman from Indiana, Mr. Hostettler, is recognized, 
and I think the gentleman from Pennsylvania wanted to ask him 
to yield for one brief second here for a clarification.
    Mr. Weldon. I thank my colleague.
    Yes, Mr. Reyes is not here. I was going to make this in the 
opening statement, but Mr. Reyes' integrity has been impugned 
by a retired CIA station chief from Paris by the name of 
William Murray, who was quoted in the Wall Street Journal as 
saying that Mr. Reyes was at a meeting with Mr. Ghorbanifar. 
That is a blatant, outrageous, unequivocal lie.
    This is the second time that Mr. Murray has been out there 
trying to cover his own failures as a CIA station chief in 
Paris. It is absolutely wrong that we would allow the Wall 
Street Journal to impugn the integrity of Mr. Reyes with an 
absolute, total, complete, unadulterated lie; and I would ask 
the follow-on Congress to investigate Mr. Murray's ties of 
whether he has contracts with the CIA now and remove him if 
that is the case. He should not be allowed to get away with 
impugning the integrity of Mr. Reyes.
    Thank you.
    The Chairman. I thank the gentleman.
    And continuing this line of questioning, Mr. Hostettler, do 
you have any questions you would like to ask?
    Mr. Hostettler. No questions.
    The Chairman. The gentleman from South Carolina, Mr. 
Spratt.
    Mr. Spratt. Thank you very much for your testimony.
    About a year ago, a little bit longer perhaps, we were 
given the formulation that our troops would be stood down as 
their troops were stood up, and the charts we were shown for 
the development of about 135 battalions would have led one to 
believe that somewhere toward the end of this calendar year 
most of their troops would be stood up at least to the first 
phase of operational capability.
    It does not seem like we are tracking those expectations in 
two respects. Number one, we have only got 80 battalions which 
can be called ready at the first phase of operational 
capability; and number two, it appears that they are not truly 
autonomous, and there are some significant missing elements, 
particularly in the area of combat support and combat service.
    What is it going to take to get the Iraqi army up to the 
levels that we deem to be sufficient in terms of equipment, 
personnel, commitment on our part and time?
    General Lovelace. Sir, I am not sure what information 
specifically you received. I know that the strategy is that as 
we build the capacity for the Iraqi security force, then we 
would begin to reduce the size of the footprint. That is still 
the strategy. The buildup of the Iraqi forces, you know, that 
was in theater as recently as August--as to their plan, they 
are generally on schedule.
    Now, they do have a change in that they are adding in about 
another 31,000 soldiers at the request of the prime minister, 
and so--but you are right, as far as the intent here, as far as 
the reduction in the footprint, that has not occurred.
    To your point about the equipment, sir, the equipment is 
coming in generally as fast as it can.
    Mr. Spratt. Do we have a process for determining equipment 
that we would otherwise leave behind that can be refurbished 
and brought to utility for these Iraqi troops to inherit from 
us?
    General Lovelace. Sir, they go through a foreign military 
sales program no different than what any other country would.
    Mr. Spratt. Oh, okay.
    General Lovelace. So that is how they secure it.
    As far as leaving behind equipment, U.S. equipment, if it 
is appropriate and it is excess and in accordance with the 
law--and the law only allows us to render any equipment which 
is in excess. And so, right now, we do not have--we have some, 
and that equipment which is in excess we have then conveyed to 
the Iraqi forces, sir.
    Mr. Spratt. Let me ask you along a different line of 
questioning because time is limited, are you concerned as we 
shift to this role of fewer Americans involved in direct combat 
and more involved in advisory capacities that our advisors 
themselves could be in danger, that if we could find ourselves 
with units on the ground, this could be Beirut all over again?
    Do you have units that are not sufficient to protect 
themselves if they were subject to some kind of attack; or they 
might be in a hostile situation and might find themselves 
embedded with a unit, and somebody within that unit would--that 
those could be critically dangerous situations, too?
    Does that concern you, and if so, how do we handle that 
problem?
    General Flynn. Sir--I will take a shot at that, sir.
    I think the key part is to making sure that we train them 
correctly and we man them correctly, and they have the right 
equipment not only for their own force's protection but to be 
able to be effective advisors in training.
    So it is a high-risk assignment, sir. In many ways, these 
individuals are out there alone and unafraid. It just speaks to 
the quality of the men and women who are in uniform, and it is 
our responsibility to make sure, before we send them out the 
door, that they have all the skills necessary to survive on the 
battlefield and to execute their mission, but the mission does 
come with risks, sir, and the best we can do is to train them 
the best we can to mitigate that risk.
    The Chairman. I thank the gentleman. Folks, we have about 5 
minutes left on a 15-minute vote.
    General Lovelace. Real quick, just one addendum. Sir, one 
of the other important pieces is, that is why then we equip 
that force clearly with communications so that it has that life 
line back to a QRF, Quick Reaction Force. That is a very 
mindful piece because nowhere that the Iraqis are, are they not 
then close by some kind of U.S. force that can react and 
provide that kind of Quick Reaction Force, sir, so that is 
another quick addendum piece of information.
    The Chairman. Thank the gentleman.
    We will resume in about ten minutes. We have one vote, 
folks, with about five minutes left.
    [Recess.]
    The Chairman. Okay, folks, we will come back to the hearing 
here. And the gentleman, I think it was on the gentleman from 
Connecticut, Mr. Simmons, a great veteran of Vietnam in both 
Army status and with one of our great intelligence agencies, 
and a guy with a lot of insight into this process. And I have 
to say, Rob Simmons has been a guy who has been pushing the 
idea of embedded teams and using that as an important tool for 
the standup of the Iraqi armed forces.
    So, Rob, you told me you wanted to talk to these gentlemen, 
here they are.
    Mr. Simmons. Thank you Mr. Chairman and I thank you very 
much for tolerating my repeated comments about the importance 
of embedded advisers, especially at this time in our 
involvement in Iraq. And I thank you for holding this hearing 
on just this subject. And I thank General Ham for taking my 
call a few months ago, a cold call to see how things were going 
out in Fort Riley because I am a believer in what you folks are 
doing. I served in Vietnam for two and a half years as an 
adviser. I was with Military Assistance Command Vietnam (MACV) 
in the military, and then I was private first class (PFC) with 
MACV Civil Operations Rural Development and Support (CORDS) 
with the Central Intelligence Agency.
    I was embedded. I spoke the language. I lived off the 
economy in the culture with a counterpart as part of a very 
small team. And I am reminded when I look at my dog tags that 
there are two Buddhist symbols or medallions on the dog tags 
that were given to me by Vietnamese Buddhists to keep me safe 
because one of the issues always is, if you are embedded as an 
adviser, are your host country troops going to take care of 
you? Are you just going to become another kind of a target? And 
my experience was, I provided logistics. I supported--I 
provided training resources, intel, certain types of what you 
call coalition services. And they very much wanted to keep me 
alive and keep me healthy because I could help them perform the 
task. And I fit in. I didn't run off to my military base every 
night. I slept and ate and worked with the people that I was 
embedded with.
    So I think it is a winner. And I think it is a winner 
especially now. And I point out for the record that the Iraq 
study report says in the executive summary, the Iraqi 
government should accelerate resuming responsibility for Iraq's 
security. While the process is underway, the U.S. should 
significantly increase the number of U.S. military personnel, 
including combat troops embedded in and supporting Iraqi army 
units. It is right in the book that just came out this week. It 
is something I have been advocating for a long time. 
Recommendation 44: The most highly qualified U.S. officers and 
military personnel should be assigned to embedded teams, and 
the U.S. military should establish suitable career-enhancing 
incentives for these officers and personnel.
    Now, in your testimony, you indicated that 18 percent of 
two Fort Leavenworth classes of officers decided to go this 
route, which is good, but I don't think it is the good enough.
    And I guess my question to the witnesses would be, does 
the--for you, General Ham, does the first division have what it 
needs to accomplish the training task of 6,000 of these highly 
skilled senior personnel hopefully with at least one combat 
tour? And I understand that only 50 percent now have prior 
redeployment experience. And I think that is a weakness.
    Do we have the people we need? Can we keep the teams in 
scale? You don't want them too big. If they are too big, they 
don't work. If they are too small, they are ineffective and at 
risk. So you have to keep them in a proper scale. And my 
experience is one good adviser is worth more than five mediocre 
advisors. So scale and quality of personnel is really 
important.
    And then for General Lovelace, is this a career-enhancing 
assignment? A lot of people referred to me as going native. 
``He went native. He is up in the boonies, up in the country. 
He is speaking a funny language. He is eating funny food. He is 
not part of the mainstream.''
    Are your career military officers and senior non-
commissioned officers (NCO) going to be rewarded for this 
assignment? Or this is going to be sort of something that you 
do, but it is not going to be really career enhancing? It has 
to be career enhancing.
    And finally, to the committee, have we planned a 
Congressional Delegation (CODEL) out to Fort Riley to see how 
they are doing. Those are my questions, Mr. Chairman.
    The Chairman. Before they answer it, let me just tell you, 
I think we have our first volunteer on that CODEL, and in case, 
you didn't know it----
    Mr. Simmons. He better hurry up and do it before the end of 
the year.
    The Chairman. In case you didn't know it, you are leading 
it, and which day of the week would you like to take off next 
week?
    Mr. Simmons. How about tomorrow night?
    The Chairman. Okay, you got it.
    We handled that one.
    Gentlemen, you want to answer those questions?
    General Lovelace. I will start off here. Just some 
interesting statistics here. You talk about, sir, whether it is 
career enhancing to have been an adviser. It is kind of 
interesting. Let me trace back here very quickly for the past 
15 years, General Reimer, former Chief of Staff of the Army has 
a Combat Infantryman's Badge (CIB). Former Chief of Staff of 
the Army, General Sullivan, has a CIB. And then General Boomer 
also has a CIB.
    Those leaders are not infantry. Two of them are artillery, 
and one of them is armor. They got those in Vietnam because 
they were advisers just like yourself, sir.
    So when you talk about whether the Army accepts and rewards 
and incentivizes, those are three leaders right there who rose 
to the pinnacle of the senior leadership inside the United 
States Army. And so I think that is a little bit of a 
reflection, and it is a little bit of facts.
    So the other thing is that, you know, when we say 18 
percent, we didn't offer that up as if that is just an end all, 
be all. It was a representation of what is the best and the 
brightest of who are the most recently schooled individuals of 
a professional education system who have come in right from 
that opportunity to move into what are these very important 
assignments. And that is all we were trying to do with it.
    These are leader rich organizations. I am not sure 
everybody understands the personnel management of this: 10 
percent of the captains in the United States Army--it takes 10 
percent of the captains who are signal corps to fill out these 
formations.
    It takes 10 percent of the captains in the inventory to 
fill out what are military intelligence.
    It takes 10 percent of the captains in the inventory of the 
United States Army to handle the logistics.
    It is just under for artillery, under 10 percent, and it is 
about 5 percent of the infantry. That just gives you an issue 
of the magnitude of what Human Resources Command (HRC) has to 
do. And then you have to weigh this in with the fact that, you 
know, we have to manage this also by dwell, individual dwell, 
because all of a sudden, an individual comes out; you want to 
give them some time back. You want to give them some time, so 
they can be professionally developed, have an opportunity to be 
with their family.
    So we are balancing all these things. And so that is why I 
think, sir, if you could leave tomorrow night, it would be 
great. I don't care what Carter Ham has to do on the weekend. 
But it would be great to have people come out because what you 
can see is the power of the institution in the United States 
Army that has gotten behind this thing for which people are 
volunteering.
    I guess the last piece, sir, is that the Secretary of the 
Army and the Chief of Staff of the Army, we are embracing 
leaders that are not only skilled in warfighting, but we call 
them pentathletes. I am not sure you have all heard the Chief 
and the Secretary use that word or not. But it is about being a 
pentathlete. In other words, they are multi-skilled 
individuals. They are not just skilled and able to handle 
warfare; they are able to handle also nonkinetic solutions like 
they are having to embrace now.
    And so that is the broadening of the aperture and the skill 
sets that we want to now have to manage and manifest itself 
across the United States army.
    The Marines have already embraced this.
    And I wish Mr. Skelton was here, because I think what is 
absolutely imperative, this foundation, rock solid foundation, 
for both our noncommissioned officers and our officers, is the 
education system. That is what makes our Army so great. We have 
the best noncommissioned officers in the world. And it is 
because they matriculate through a system of professional 
development. The officer corps does it also. And we will stack 
our leaders up--just like the Marines will--against anybody 
else in the world. And that is what gives them this opportunity 
to be agile and address the challenges out there. Longwinded 
answer, sir, but thanks for asking.
    Mr. Simmons. I appreciate that.
    And General Ham.
    General Ham. First, Congressman Simmons, you are indeed 
welcome.
    Mr. Chairman, whenever you would like to send someone, 
either Members or staff, out to Fort Riley out to see us, we 
would welcome that. And whatever schedule works for you works 
for us.
    You asked, sir, if we have the resources to conduct the 
training, and I will tell you that, thanks to the committee and 
for my own Department of the Army, we do have the resources to 
execute this mission. The most important resource is the 
leadership officer and noncommissioned officer leadership of a 
division headquarters and of two combat brigades that are 
dedicated to this. They are very, very capable of executing 
this mission.
    Key among the resources to execute this training are 
linguists and foreign-language-speaking role players. And we 
need, specifically, Iraqi dialect, Arabic role players and Dari 
for the Afghan piece of our training as well. That is probably 
the toughest resource to get. Those are scarce, scarce 
supplies. But we so far have been able to do that to the 
requisite standard.
    One resource that we are trying to get that we don't 
presently have is to get actual Iraqi and actual Afghan leaders 
to come participate in the training with us.
    Now, obviously, those, the key leaders, the kinds of 
leaders that we would like to have at Fort Riley are exactly 
the kinds of leaders that are fully engaged inside Iraq and 
Afghanistan. But we are trying to find some way to get real--to 
get serving Iraqi and Afghan leaders to come talk to our teams 
as they are going through the training. We think that is 
important.
    Sir, you also asked about the experience based. It is, 
about 50 percent of the individuals going through training have 
prior deployment experience.
    I would say, though, that is less important to me than the 
individual previous deployment experience is to make sure that 
each team has the requisite degree of experience resident in 
that team. It is not necessary that all 11 members of a 
battalion team have previous experience, as long as enough of 
them do that they can share that experience, and we endeavor, 
with the human resources command as they build those teams, to 
ensure that is the case.
    General Flynn. Representative Simmons, I would like to add 
one thing about whether this is good for a Marine's career. 
Marines traditionally have valued combat as a key part of how 
you are measured amongst your peers. And I think one of the key 
indications that we are seeing right now is, as we are doing 
advisers more than one rotation now, as we are seeing former 
battalion commanders going into the higher level of being 
brigade or division advisers, and likewise we are seeing 
individuals who are majors, who are getting out command-
screened to be battalion commanders. So the proof is there.
    We went back when we set up our adviser program, the 
first--our training program--and the first thing we did is, we 
went back to some of the legends of the Corps who had done this 
in Vietnam, individuals like Colonel Ripley, Colonel Turley; 
and Colonel Boomer and said, okay, how should we do this? What 
were your lessons learned so we can do it right?
    So the experience is valued. I tell you this, from running 
a training and education program, I love getting these guys 
back and putting them in the training and education 
establishment because they spread their knowledge and they 
spread their experience. And because of that, we rise--we raise 
up the quality of the whole force that way.
    Mr. Simmons. I want to conclude, Mr. Chairman, by saying, 
our soldiers did a magnificent job in defeating a conventional 
force quickly and efficiently. And our soldiers have done a 
magnificent job of providing security in Iraq to stand up a 
provisional government, to conduct three elections, and to 
stand up a permanent government.
    I think we are doing a great job now of--I think we have 
the possibility of doing a great job now of moving from a 
strictly security role to a robust advisory role, security to 
advisory. And I think that is entirely appropriate. And I think 
the time is right for that. The time is right. The time wasn't 
good two or three years ago for this kind of a program. But I 
think the time is right for this program.
    I have every reason to believe that our military, that I 
consider to be the best in the world and certainly the best 
I've seen in my 37 years of service, is ready to take this on, 
and I wish you all the best. Thank you for your testimony.
    General Lovelace. Mr. Chairman.
    The Chairman. I thank the gentleman and I thank the 
gentleman for his great service on the committee, as well as 
the gentleman from Colorado here, Mr. Hefley, and the gentleman 
from Pennsylvania, Mr. Weldon, who spoke a few minutes ago.
    And as a--I would just say that I think you probably, as an 
adviser in the U.S. military and in a combat operation, and 
your voice and your experience should be one that we look to in 
the days ahead with respect to this issue. Very critical issue 
for us.
    The gentleman from Texas, distinguished gentleman who has 
spent a lot of time in the combat theaters, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. I know we have been in 
this war for too long, three and a half years. I know its 
history about what happened in the beginning, 2003. The Iraqi 
army was disbanded in 2003.
    Was that a mistake that we made? And was this mistake that 
we made, in my opinion and the opinions of other people, by 
disbanding it, was this made by our civilian authorities like 
Paul Bremer who was there, or was this made by the military?
    General Lovelace. Sir, I accept your question, I am not in 
a position to answer--I don't have the knowledge, I mean, this 
is a policy issue. Things were made--decisions were made in 
theater. I was not there at the time.
    So, I apologize. I am not personally able to address your 
question.
    Mr. Ortiz. And the reason I ask is, because we hope that if 
this was a mistake, that we do not make this mistake again. 
This is why this is very, very important at least to me.
    But how many of the old Iraqi personnel are now fighting 
coalition forces or now with the insurgents? I am pretty sure 
that when you take somebody prisoner or detain somebody, you 
ask, you question them.
    Do we have this information as to how many of the old army 
are now fighting our coalition forces?
    General Flynn. Sir, I just say one thing on that. I don't 
think we have that information. And but the other part I say, I 
think one of the things that goes back to the issue raised on 
disbanding the Army, one of the key rules that we have learned 
in counter insurgencies over the years is, never create more 
enemies than you already have. And that is one key part of it.
    So I think part of the answer to your question probably 
lies in that, is you need all of the friends you can get in 
counter insurgency. And one of the ways you can get there is by 
assigning quality advisers to that because that shows a 
commitment to raising that capability. So that is how I would 
answer your question, sir.
    Mr. Ortiz. Now talking about advisers, I was going through 
some of the statements, and I understand that they go through 
35- to 40-day training. In your opinion, do you think this is 
sufficient training? And the advisers who are embedded with the 
troops, have they been deployed before? Have they seen action 
in Iraq?
    General Flynn. Sir, as I said in my opening statement, the 
training is standards based. We in the Marine Corps, very 
similar to how the Army does it, we use a building block 
approach. To say specifically there is a time limit on that, on 
how we do it, no, because the end product when you go through 
your final block of training is an assessment of how well you 
can do your mission.
    If you fail that mission--if you fail that mission 
assessment, we don't deploy you. We put you through remediation 
to make sure that you are ready to do deploy. It is exactly the 
same procedures we follow with our units. If a battalion, when 
it goes through its predeployment training failed its 
assessment, we don't deploy, and they have to go through 
remediation. And they have to then go back to the Operating 
Force Commander who is responsible for their deployment and to 
make sure that they have corrected all their shortcomings.
    So it is a standard based program. And the key part on 
where we do our final 30 days of training is, that is really 
the mission execution rehearsal. The block one and block two 
training could take a lot longer than that which are the 
individual skills training as well as training in the operating 
environment.
    Mr. Ortiz. Because what I see, I think you embed anywhere 
from 10 to 15 to 20, and the list that I saw, they are mostly 
senior, either lieutenant colonels, majors, sergeants. When 
they are embedded, what is the casualty rate of those that are 
embedded with the troops? With Iraqis?
    General Lovelace. Sir, if I could and what I like to do 
is--I don't have the casualty rates. We will--matter of fact, 
one of the things we watch very carefully, I think it relates 
to the risk question that was asked earlier, about the level of 
risk and the dangerousness of the mission, that is one of the 
things that we follow very carefully to make sure that those 
individuals are not being targeted; you know, there is not any 
trend on this. I don't have the casualty rates, but we will 
take it for the record and get you that information.
    Sir, if I could, to follow in reference to the training, 
and especially with Congressman Skelton here who has championed 
and been a real standard bearer across all the services, 
reference, professional development, the leader training and 
all that goes on, you know, talk about these days, whether it 
is 65 days--it is about 60 days now worth of training.
    The issue is that that is placed on top of a foundation of 
what is experience, education and training that has gone out 
through that individual, that leader's career. And that is what 
it is built on top of it. So it is just not that one period or 
moment in time. While we see it that way, it is a level of 
professional development and experience and training that has 
gone on. So I offer that up to keep it in a perspective because 
we do focus on--what we tend to do inside the service ourselves 
is focus on a very narrow window in time.
    Mr. Ortiz. See, and the reason I asked about the casualty 
rate, because you don't know who they are going to be embedded 
with. They could turn against our own soldiers. And to me, this 
is why this is very important. The casualty rate of those that 
are embedded. Can we trust the guys that they are going to be 
working with? And I know that seems to be a problem, but I 
know, Mr. Chairman, my time has run out.
    The Chairman. My friend from Texas, we will get that 
casualty rate for the embedded personnel to date. We will try 
to get that for you today. I think that is an important 
statistic to get.
    General Flynn. Yes, sir, I will give it to my manpower 
folks, sir.
    General Lovelace. Mr. Skelton, I do have an answer to his 
questions.
    The Chairman. I was going to say, Mr. Skelton has, as an 
answer and he had a few comments, too.
    General Lovelace. Sir, the question that you asked me was 
the numbers of units that are in the lead. There is a total of 
ten divisions in the Iraqi security force at this time. Right 
now, there are six division headquarters, 27 brigades and 88 
battalions in the lead. That is 88 of what are about 140 
battalions that are in the armed forces.
    Mr. Skelton. Thank you. One quick comment, General, we all 
know whether it is insurgency, counter insurgency, force on 
force, the side that always wins is the side that has the will 
to win.
    And I know there is no measurement as to whether those that 
you are training have the will to win or not.
    But do you have any judgment from talking to your trainers 
and to your people in the field that are working with the 
Iraqis as to whether they have the gut-wrenching feeling, will 
to win?
    General Ham. Sir, I will take a shot at that. In my 
discussions, very frequently, with the commander of the Iraq 
Assistance Group, who is in Iraq and spends time with these 
teams, while there certainly are exceptions, generally the 
feedback from the teams is that the attitude of their 
counterparts, of the commander, the Iraqi counterparts with 
whom they are working, is very positive.
    They are--they, the Iraqi commanders, are concerned about 
their own capabilities. They are concerned about whether or not 
they will be fully supported by their government. They have 
lots of concerns. But they understand the role that they must 
play in order to provide for stability inside their own 
country.
    So I think, generally, the teams would report that the 
feedback from the Iraqi counterparts is quite positive.
    The Chairman. Thank the gentleman.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you very much for being here. I have two questions I 
want to get out, so I will ask them quickly and I am looking 
for a quick answer, particularly the first one.
    You are putting together teams, and the numbers vary. The 
composition varies. And so the first question is, do you, the 
Marine Corps, or you, the Army, do you have a formal request, a 
requirement from the Central Command (CENTCOM) commander or the 
commander of the Multi-National Force Iraq for these teams, 
something in writing?
    General Flynn. Sir, the way we source the teams, they are 
already a result of a request for forces, or an RFF, which 
delineates the mission for the team as well as the composition 
to include both the specialties and the rank structure. So it 
is done by a request for force.
    Mr. Kline. From whom?
    General Flynn. From the theater commanders.
    Mr. Kline. General Lovelace?
    General Lovelace. Sir, the same, and they also prescribe 
training, the training standards and the program construction 
that we train back in the States, and we complement what they 
do in theater.
    Mr. Kline. So that, since that request for forces, 
apparently you both have the same one; the team should then 
look the same, is that right? We have had--I am sorry, but 
General Flynn, you gave an answer; sometimes it is 11; maybe it 
is 20; sometimes there are drivers----
    General Flynn. Sir, that is being done independently in the 
multinational force. They have been adding up. They have been 
adding some additional support personnel to the teams. But the 
basic structure of the team is 11, which is the same.
    Mr. Kline. Thank you. We had the opportunity to chat a 
little bit during the break, so to speak. Unfortunately, I left 
before I heard the complete answer to Mr. Skelton's question, 
and I would like to get back to that, the question being, is 
the performance of the Iraqi--and I may miss this a little bit, 
Mr. Skelton, but is the performance of the Iraqi battalion, the 
army battalion, is that a direct reflection on the competence 
and capability of the embedded team?
    If you would just take the remaining 2 minutes and 48 
seconds, either one of you, and talk about what that 
relationship is and how that would work?
    General Lovelace. I will start off. My hesitation was to 
make sure I understood the question, and I apologize, 
Congressman Skelton.
    Whether the performance of the Iraqi forces, my opinion, is 
not a reflection of the capability, competence and performance. 
There are too many other variables that go into this, one.
    Second is that one of the questions that you all are 
interested in is the assessment done on the readiness of the 
unit. It is done dually, and it is done that way for a reason.
    It is done dually up the Iraqi chain of command, and it is 
done up the U.S. side through the U.S. from the battalion to 
the brigade to the division. And it is reconciled. And so 
therefore what you want is you want someone who can talk and 
assess independently because they have to now be able to now 
truthfully say what they are exactly capable of doing.
    And I know having--although this is one year removed, after 
having talked to J.R. Vines, who had been the commander prior 
to General Chiarelli, this is a big emphasis on their 
assessment, independent assessment, of the U.S. of the 
capability of the Iraqi security force. You want that. And so 
therefore what you--if that is the case, then what you don't 
want is that a thought in the transition team that they own the 
performance of--you want them to coach, teach and mentor to 
make them better, but don't own them and accept it is your 
responsibility if they did not succeed.
    Mr. Kline. If I could just interrupt for a second. This is 
a point that we were discussing earlier. It seems to me that 
what you don't want is a tight marrying of the performance of 
that Iraqi battalion with the progress reports, if you will, 
the efficiency reports of those embedded teams. So that team 
commander has got to be able through his U.S. chain of command 
to say, this battalion really needs work, it is not doing well, 
and not have that report reflect adversely on his own chances 
for promotion.
    General Lovelace. No, sir. That is exactly right, sir. You 
helped me say it much better. Thank you.
    Mr. Kline. I have been thinking about it. Thank you.
    And incredibly, Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman.
    And the gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman, and thank you for 
having this hearing. I know of your continued interested in 
this issue, Mr. Chairman, but I think that the whole committee 
and the Congress and the American people will have an ongoing 
interest in this topic. And I expected that this hearing today 
was just going to set the beginning for what will be a very 
vigorous ongoing look and oversight over the next several 
years.
    General Lovelace, at the conclusion of your opening 
statement today, you demonstrated the admirable quality of 
defending your troops against public criticism. And I assume 
you are referring to a couple of press articles that we saw 
today. And I appreciate your comments.
    On the other hand, I think it is really important that we 
fully and publicly air any kind of shortcomings that we may see 
because we want this thing to be successful as best it can be. 
To me it seems like step one is we have to have the right 
troops, and you can have certainly an excellent person in their 
military occupational specialty that may not just not be a good 
trainer, they may not just be a good teacher, they may just not 
have the personality, as Mr. Simmons was talking about, to go 
native. They may just not have that temperament. That is part 
of your job to sort that out.
    The second component of that is to have the right training. 
And so, for example, when I hear like 40 days of, or 40 hours 
of language training, we are really not kidding anybody here. 
Basically you are doing greetings and which way to the bunker 
and which way to the bathroom. That is as far as we are going 
to get with these languages.
    I have some years ago made the comment that we ought to 
start language training in boot camp when we actually have a 
captive audience and just declare this platoon as Dari and that 
platoon as Arabic and have that training stick with people as 
they go through.
    But the third component is--you have the right troops and 
the right training--is you have to set them up with the right 
opportunity for success. And again, this has been part of this 
discussion of safety. If we start doing this swapping out, 
pulling back all the--a lot of our U.S. troops, we could have 
these folks isolated out there unintentionally and may perhaps 
set them up for danger. Or it may be that the units they are 
embedded with really are the kind of units, some of them, that 
there is no chance for success. All those kind of things, the 
issue whole issue of which way is Iraq going.
    So I think what this committee is about is trying to do 
everything we can to help you, and at times that may be having 
very public discussions about, well, it turns out we have some 
wrong people in there, or it turns out we have to do a better 
job of training in this capacity.
    I have some specific questions I will go into now.
    The Center for Army Lessons Learned, and they did a report 
on their advisers in Iraq, came out with what they thought was 
the skills set necessary, and it seemed to some viewers that it 
is very close to the Special Forces. And so my question is 
should we just be focusing on what has already occurred in the 
Congress, of dramatically increasing the number of Special 
Forces with the idea they all become these kind of trainers? Is 
that another way to get at this?
    General Lovelace. Sir, the Special Forces' core competency 
is foreign internal defense. In the past, the conventional 
forces have also been used, and just like we did in Vietnam, we 
have used it to advise, and they have done quite well.
    And so, sir, if I could, because I think it is important, 
one of the things that we do do, we get information from what 
we are not doing as well as we need to do, and we bring that 
back into the force. And Carter can talk about that.
    But we also do things that we want to sustain. And all in 
all, the better than 2,400 young men and women that we have 
that are doing this in general are doing a good job. That was 
my somewhat defensiveness about--because perhaps, you know--and 
very small samples of N, N equals two or three, we might see 
things that are going wrong. And so----
    Dr. Snyder. I think these are very wonderful young men and 
women that are doing these things.
    General Lovelace. To get to your question, what we also 
have is a growing level of maturity and experience inside the 
conventional force that we don't want to have lost either.
    And so I am not saying we are catching up in the 
conventional side with the Special Forces, because those are 
very selective, hand-picked, they go through quite a regimen to 
provide. But on the other hand I think we have a strategy that 
with time can be effective.
    Dr. Snyder. General Ham, you refer to numbers 10 to 50. Do 
they all train together as a unit?
    General Ham. They do, sir. When they come to Fort Riley, 
they come from disparate locations, but they are formed as a 
team at Fort Riley and go through that together.
    Dr. Snyder. Thank you, Mr. Chairman. My time is up.
    Mr. Saxton [presiding]. Let me follow up on Mr. Snyder's 
question for a minute. A few weeks ago the Ranking Member Mr. 
Skelton pointed out a book that talked a lot about insurgencies 
and counterinsurgencies, the nature of insurgencies and the 
difficulties in carrying out the counterinsurgency. And I must 
say that as I read the book, I thought a lot about the Iraqi 
soldiers and the Iraqi battalions that we are putting together 
to try to have them carry out the role of counterinsurgency. 
And so today's hearing is very meaningful from the perspective 
of those of us who have tried to understand how this process 
works.
    And let me just ask you this. The folks that are training 
the American soldiers that you are training to be embedded with 
Iraqi units obviously possess some pretty unique skills, and 
that is good, and we thank you for everything that you have 
done to help develop those skills.
    But I am curious about your impressions of how the 
interface takes place with the folks that we are training also 
in Iraq. I guess my questions start with wondering about the 
nature of the Iraqi society and the effect that it has on the 
individuals who become Iraqi soldiers. We know that part of the 
process is showing up at the recruiting center. And we know 
about the recruiting centers because we have seen that they are 
oftentimes targets of improvised explosive devices (IED) and 
folks that want--insurgents who want to inhibit the process of 
our counterinsurgency.
    We know that there is a training process. Most of us who 
have been to Iraq have seen that training take place with Iraqi 
soldiers on one or more occasions. Early on it was fairly 
rudimentary training, and as we saw the latter stages of the 
latter opportunities that we have had to see the training, it 
looks a whole lot different than it did in the beginning, and 
that is a good thing. And some of us have even seen some 
operational capabilities of the Iraqi soldiers.
    So I guess my--what I would like you to do, and I think 
this is very important for all of us on the committee to 
understand this, and it is important for the American people to 
understand this as well, give us your impression of the Iraqi 
units. What motivates them; what societal elements there are 
that may motivate or inhibit them? And how are they doing 
generally?
    General Ham. Sir, the feedback that we have gotten from the 
early deploying transition teams was that the number one task 
that they thought that they needed additional training on was 
cultural awareness, and specifically in Iraq, so that we could 
better prepare them to cope with the conditions that they would 
encounter being embedded with an Iraqi unit. And, of course, it 
is quite a different culture than our own. And in preparing our 
officers and noncommissioned officers for that environment, we 
have spent--we have repeatedly added additional training to 
make sure that they are prepared for that, to understand the 
nature of the tribal construct, to understand the influence of 
Islam through all of Iraqi life.
    So we do spend considerable effort to make sure that they 
are doing it. They are different than us. This is something 
that we try to make sure the advisors understand. We are not 
trying to build a mirror image of the American Army in Iraq.
    Mr. Saxton. Let me ask you this. You say that we have had 
to make some changes in the way we train our folks because some 
of the things that they found when we got there we didn't 
anticipate. Give us some examples of some things that you had 
to change because we found some things that were different from 
what we expected.
    General Ham. Sir, we focus heavily now in the training to 
make sure that the teams, for example, understand the hierarchy 
of a tribe. So there may be a sheikh there who is not in any 
official position inside an area in which their unit is 
operating, but yet he wields significant influence. The same 
for an imam at one of the mosques. So that is a little 
different from the American culture.
    They have to understand that the soldiers, that the 
commanders that are serving in the Iraqi Army are influenced by 
others that may not be necessarily in official positions. And 
we have to be aware of that, attuned to that, so that we can 
help that Iraqi commander make good choices.
    So it is those kinds of awareness opportunities that we try 
to embed in not only our formal classroom instruction, but more 
importantly in the training vignettes that we conduct 
throughout the 60-day model.
    Mr. Saxton. General Lovelace, do you have anything for us?
    General Lovelace. The other thing I was going to ask was 
General Ham to sort of a follow-on piece, because you had 
talked about the skill sets would be, sir--to have General Ham 
address some of the--when people do not have the skill sets 
that Dr. Snyder was talking about, we do attrit them from the 
course. They do not make it into theater. And so I think that 
is a reconciliation to address the point that you are talking 
about.
    General Ham. The good news is our attrition rate through 
training has been about four percent. It has been quite low. 
And the largest reason for attrition through training has been 
medical. I think that is a testament to something General 
Lovelace mentioned earlier, and that is the ability of the 
officers and noncommissioned officers, in the case of Fort 
Riley, Army, Air Force, and Navy. They are so good because the 
education systems in the services are good that they come with 
a skill set that allows them to assimilate these new 
capabilities and be successful as advisers.
    General Flynn. One thing we have learned in lessons learned 
in this is the importance when you pick advisers is they have 
to be patient. You know, we have a lot of type A personalities, 
surprisingly, in the Marines, and you have to teach a little 
bit of patience.
    The other part is a realization that personal relations 
trump all other metrics in dealing with them.
    And last, sir, I would say that as we have trained 
advisers, we come back and we have a systematic approach where 
they have lessons learned so that we can change the way we are 
doing things to make it better.
    General Lovelace. One quick last point on this is that we, 
throughout the force, basic training right on up to senior 
levels inside the noncommissioned officer education system and 
in the officer professional development system, we are now 
laying a foundation for cultural awareness.
    You know, we were an army that focused essentially two 
places in the world. Basically it was in Europe, and then it 
was in Korea. And so we have shed that. And now we have people 
that are looking at and then well beyond. And these are people 
who are trying to learn, and right now we might be focused a 
little bit on Iraq and Afghanistan, but rightfully so, because 
that is a very critical region for our national security. And 
it captures the kinds of things we have all been talking about 
here, so----
    Mr. Saxton. Thank you.
    Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman, and thank 
you all for being here and for your extraordinary service. I 
think some of the issues that we discussed are ones that were 
very much on my mind. And one of the articles that Mr.--I am 
going to say this wrong--Mr. Krepinevich wrote some time ago 
did focus on this and some of the issues that have arisen over 
the course of time, and I wonder if you could just address 
them.
    Partly you have talked about the fact that the ability to 
promote individuals who take on this task is more recognized 
today than it was, I think, perhaps a year ago. That that has 
changed.
    But one of the other issues that was addressed is to take 
away from the adviser some of the responsibilities, be it 
paperwork, whatever it is, that sort of burdens sometimes our 
people out in the field so that they really are freed up to do 
a different task. And if you could address that.
    But also the ability of them to work with their Iraqi 
counterparts so that they can ferret out corruption within the 
units, and that they can then hopefully be able to still enable 
people to do what they really want them to do.
    How does that affect their work in the units? And how are 
we training them to work with that issue particularly and 
perhaps to take some of that burden away?
    The other thing I would just like you to address is our 
training of police officers and border agents and whether or 
not that is also within this effort with training advisers as 
well as.
    General Flynn. Ma'am, a couple of things. One of the things 
that helps with the training now is now we are starting to see 
advisers come back who now have conducted training. And that is 
one of the things that are--those skill sets have been able to 
evaluate somebody to root out those things that are bad in the 
unit that you are in just based on the experience.
    We do have a training responsibility. We train--this year 
we were responsible for training 10 border transition teams and 
4 national police transition teams. So in addition to the 
military transition teams, we are training the others, and that 
one of the things we are doing currently right now, for 
example, on the border transition teams out on the west coast, 
we have had them work with the border patrol to learn how the 
border patrol does border operations. So we try to go out and 
take advantage of skill sets that already exist so that we can 
help in the training.
    And one of the things when our--when we are working on----
    Ms. Davis of California. Excuse me, are any of our border 
agents going over to Iraq then and actually being embedded, as 
well or our police officers?
    General Flynn. Ma'am, I wouldn't know the answer to that 
question. I am not sure about that at all.
    But when we do our training in January, our new revised 
training, the mission exercise will be focused on what type of 
team you are going to be. So we will be able to evaluate that 
necessity. And again, this is part of the process of always 
making the training better. You know, we are never declaring 
that we got it right. We also always have to make it better.
    Ms. Davis of California. Freeing folks of the kind of 
paperwork that has always been required, is that something we 
have been able to work through and do a better job at?
    General Flynn. I haven't heard of anybody being burdened 
with paperwork. I don't think they think Marines can do 
paperwork. Maybe that is the problem.
    Ms. Davis of California. In reflecting on the police task 
as well, we know that in the communities this has been a far 
greater need in some areas than even in training the military. 
Is it appropriate--have you found that it is appropriate for us 
to be using the military to train their police, and where have 
you seen that there are problems with this, whether it is in 
the approach, how we apply the science, whatever that may be?
    General Lovelace. Let me do this. If I could capture a 
couple of quick points. The Krepinevich article. We have been 
engaging with him because from our perspective, from the Army's 
perspective, he is using dated information, one, and he is 
looking at a point in time when in February all of a sudden we 
are asked to have in theater 60 days later formations, large 
numbers, that begin to populate and then embed inside of the 
Iraqi security force.
    And so basically what happened then was--is that we did a 
small amount of training here in the States. Theater said they 
would do the preponderance of training in theater. That was the 
handshake. That was the agreement. And so from about the time 
that we got the mission until they showed up in theater, it was 
less than 90 days.
    I think that is pretty admirable to react to a combatant 
commander. Was it perfect? No. Is it better the month after 
that? Yes. And each month it has gotten better.
    And so I see these articles, and I take issue with them.
    One of the kids that went over there in May 2005 was my 
executive officer. He volunteered. This is a successful brigade 
commander, combat veteran. And so when Dr. Snyder asked with a 
little bit of emotion, I can get behind here with a little bit 
of emotion, because I see it. I can touch it. Under the G-3 
itself we pushed about 14 kids who raised their hands who 
wanted to go over out of the Pentagon. Now, that might have 
been incentive now for them to try to get out is to go 
because--but----
    Ms. Davis of California. Are they having any extended tours 
beyond what might be expected?
    General Lovelace. I think the point is good because that is 
why when we invite people to go to Fort Riley, one of the 
reasons we have focused on the post--I know we are running 
over. This is an important point.
    Why we focus on Fort Riley is because we allowed that force 
and the management of it, as you then came back, you came back 
to Fort Riley, and then what you are going to be allowed to do 
was you were going to allow to impart what you had learned on 
those units that were going on over next. It just makes good 
sense. And so that is why I think we have a great story to 
tell.
    I know the Marines have a great story to tell. I would love 
for you all to come see us.
    But the police--real quickly, because I did make a trip 
into theater, a couple this past year, one of the focuses was 
on this is the year of the police. So there has been a huge 
focus, because what they want to do in the strategy is to allow 
the communities now and the community base to have the Iraqi 
police be in charge, or the Iraqi military be less visible.
    And, you know, we have young men and women, great young--we 
have a military police who have great skills. They take care of 
the law enforcement, the kinds of things that then are relevant 
and just what we want the Iraqi police to be like. What better 
examples of the young men and women that we put into these 
formations than to model themselves after the young men and 
women who are in uniform? So the skill sets pretty much 
overlap, ma'am.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Generals, thank you very much for being here today. I 
am very appreciative of your troops and what they have meant to 
helping protect the American people, and I am particularly 
pleased with the military transition teams as you all have 
reviewed, their courage and their effectiveness.
    And, General Ham, the 1st Infantry Division, I know 
firsthand of your ability to train and work not only with 
foreign troops, but the South Carolina Army National Guard. We 
are very grateful that the 218th Mechanized Infantry has been 
trained for years, and cotraining for the preparation of their 
deployment to Afghanistan soon, and I want to thank you for 
that.
    I do share with Congressman Ortiz concern about the level 
of risk of our team members who will be with the Iraqi units. 
And it has been something I have learned about the interpreters 
who also accompany the troops and their ability to assist with 
breaking the language barrier and also the cultural barriers.
    Could you tell us about the interpreters, and are they 
available? And how many are available?
    General Ham. Yes, sir, I could.
    During the training, as I mentioned, the teams do get some 
language training, but as Congressman Snyder indicated, it is 
very rudimentary. We get to a capability where they can have a 
simple conversation with their counterpart or with someone that 
they meet. But we advise the teams that when they go into 
formal discussions, operational discussions, with their 
counterparts, they must do so through their interpreter. And 
each team does have an interpreter, and we train on that and 
practice on that.
    We have contracted language speakers in the training base 
who perform that mission, because using an interpreter is in 
and of itself a skill set which the teams must have. So we 
focus hard on that through the conduct of training.
    Mr. Wilson. And I learned of that, and one of my sons 
served for a year in Iraq, and he was always impressed with the 
dedication of the interpreters, their courage, their insight, 
and how they certainly have helped and enhanced the security of 
our troops. And so I appreciate very much your bringing that--
explaining to us the significance of interpreters.
    Another concern that I have had--and I am very pleased that 
there are now 88 combat battalions in the lead of the Iraqi 
Army. The level of equipment with the transition teams working 
with troops, do we feel that they have proper equipment to meet 
the challenge of the terrorists?
    General Ham. Sir, I am confident that the teams--if you are 
talking about the teams having the equipment they need, 
absolutely.
    Mr. Wilson. The teams and the Iraqi forces.
    General Lovelace. First off, the teams do have what they 
need. That is a priority fill of equipment for those units 
going into the theater. They get up-armored Humvees, they get 
the electronic countermeasures, et cetera, radios. It has to 
be. They are alone and unafraid out there, so they have to get 
the right stuff. The soldiers are equipped with the latest in a 
rapid equipping initiative that we have. You all have seen that 
on the soldiers that are over there, so they do have.
    On the Iraqi forces, sir, in preparation, the only comment 
I could render at this time is I know they are equipped to 
about 85 percent of what they need. That is the little bit I 
know right now.
    Mr. Wilson. So it wouldn't be inhibiting to them as to 
their resourcefulness because they don't feel like they have 
proper equipment.
    General Lovelace. Roger, sir.
    Mr. Wilson. Thank you very much.
    Mr. Saxton. Thank you.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank you gentlemen for being here and for your 
service to our country.
    I am curious--and this question is based on some training 
exercises that we have had with other countries. I have always 
been curious if we track how long these people we train stay in 
that nation's service. Colombia came to mind where it seemed 
like every time I was going down there, you know, we were 
training guys up, and in some instances it turned out they went 
over to the Revolutionary Armed Forces of Colombia (FARC) or 
the United Self-Defense Forces of Colombia (AUC) after our 
Nation had spent a good deal of money to train them up.
    So my question is what is the length of service of an Iraqi 
now? The people that we are training, are they conscripts? Are 
they volunteers? Where do they fall in the officer/enlisted 
pecking order? And is there any effort to track them to see if 
we are just not training soldiers for al Sadr's army?
    General Lovelace. Let me tell you what I know, sir, and I 
will have to take for the record as far as how we track. I 
don't know in general, because I thought that was the first 
part of your question was in general how we track.
    I know that in some cases that we do some schools. I know 
specifically that--I am very familiar with we do track the 
careers of individuals. But I have to get back with you as far 
as the army.
    As far as the length of service, sir, they are a volunteer 
force. They have no--and I guess it is really kind of a 
reflection of their will to fight is that they are standing in 
line to enlist in the armed forces. I think that is a 
reinforcement because what we give them is hope. They can see 
tomorrow because we give them hope. And I think that is what 
bolsters not only their will to serve, but their will to fight.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    Mr. Taylor. If I may, more to that point, I know that, for 
example, when people apply for Special Forces training within 
our Army, they make a commitment to serve a while longer. When 
people apply for our nuclear schools in the Navy, they make a 
commitment to serve a lot longer because we are investing so 
much in them. This I would think would be sought after in that 
same way as those two specialties within our forces.
    So the question is is there any commitment that comes on 
the part of the Iraqi to get this kind of training? And if 
there is, who tracks it?
    General Lovelace. Sir, can I take it for the record?
    Mr. Taylor. Yes, sir. Please.
    General Lovelace. I can't answer.
    Mr. Taylor. So no one has tracked the retention; no one has 
tracked whether these guys immediately take their training, go 
over to other side----
    General Lovelace. Sir, I didn't say nobody was. All I said 
was I don't have that information. I am sure that probably 
somebody in theater is tracking those kinds of statistics, but 
right back at the Department of the Army, sir, I don't.
    Mr. Taylor. Thank you, gentlemen.
    With the time I have remaining--I can hardly yield to the 
gentleman from Arkansas, can I? But if you could get it for the 
record, I would be very much interested in that.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Taylor.
    And next will be Dr. Schwarz.
    Dr. Schwarz. I have no questions.
    Mr. Wilson. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your service and for your 
testimony here today.
    I would like to start by following up, looking a little 
more in detail at the question--the answer you gave to Mr. 
Skelton's question with respect to the number of Iraqi combat 
battalions who are actually combat-ready and what capacity they 
are serving in.
    General Lovelace, you responded by saying there are 
approximately 80 Iraqi combat battalions that are operating in 
the lead, yet in the lead doesn't mean the highest level of 
readiness. In the lead actually means working operating with 
some U.S. assistance as opposed to operating completely 
independently of U.S. assistance.
    Can you more specifically tell us of those 80 that are 
operating that are combat-ready, you said they are in the lead, 
how many are actually operating independently?
    General Lovelace. Sir, I will have to turn to the people 
who have the books behind me and see if I could--if I could 
give you a wait out and see what I have with me today. Some of 
those are absolutely working independently, some are not, and I 
will make sure I get you that information. If I can't get that 
before I leave, then I will take it for the record, sir.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Langevin. I appreciate that, because obviously that is 
key to us finally, once and for all, being able to transition 
security operations to the Iraqis, and I think we all need to 
know how many are actually operating independently.
    And on that point, on the scale of one to four used for 
Iraqi Security Force readiness assessments, what are the 
biggest challenges right now preventing units from moving to--
from a two rating, where they are operating in the lead with 
assistance, to a level one, where they are operating completely 
independently?
    General Lovelace. Sir, again, the questions are things that 
theater would track here. I do not have that--we do not have 
that information. I apologize. We can seek to get it from 
theater and take it for the record, but that is a theater 
question.
    Mr. Langevin. You don't know the biggest challenges right 
now that are preventing us from moving from a level two to a 
level one?
    General Lovelace. No, sir.
    Mr. Langevin. If you could get those for the record, those 
are important things to know.
    [The information referred to can be found in the Appendix 
beginning on page 71.]
    Mr. Langevin. General, are you tracking--with respect to 
the number of facilities, our units that we have doing the 
training, is our operation there sophisticated enough where we 
are actually tracking metrics so that we know which facilities 
or which units are having the most success in actually training 
and transitioning and moving the Iraqi forces through the 
various levels of training, and perhaps being able to learn 
from those units that are doing the best in terms of training 
and those that are lagging?
    General Flynn. Sir, I can answer that a little bit. I know 
that the adviser teams report up through the chain of command 
on their readiness assessments. That is one of the functions of 
an adviser is to do that assessment and to provide that up to 
the chain of command. And in the case of the majority of the 
Marine Corps' military transition teams, they report that 
assessment information through the operational chain. It goes 
through Multi-National Force West, and then it goes up to the 
Iraqi Advisory Group. And from there, you know, I am sure that 
is where the lessons learned are and all the information is 
kept.
    But, again, I don't have access to that information, but I 
can tell you that that is how we do the assessment process. It 
is done by the chain of command, and it is done through the 
operational chain, and we do take the lessons learned. That is 
one part that is very active.
    Mr. Langevin. Thank you. And while I still have some time, 
hand in hand with the training and making sure that the Iraqi 
Security Forces are operating at maximum level and are 
successful in being able to provide security for Iraq, only the 
training is going to be, obviously, having the right equipment, 
and to what degree are the Iraqi Security Forces sufficiently 
equipped so that they are operating at a superior level to the 
insurgents who are attacking them? Because I have heard, and I 
know members of the committee have heard, that the Iraqi 
Security Forces are conducting operations in very light-armored 
vehicles, pickup trucks and the like, and do not have the 
heavy-armored vehicles that will put them in a superior 
position over the insurgents.
    Can you address that?
    General Flynn. Sir, again, I would have to pass on that 
one. That is best up to the operational commanders to address 
because I do not have visibility on that from my role on this.
    General Lovelace. Sir, just to reiterate a point--I know 
you have heard this--they have about 85 percent of their 
equipment. They do have some up-armored Humvees. They do not 
have, you know, the thousands that we have, but they do have 
some up-armored Humvees.
    Sir, if I could come back to your question a little bit, 
the only thing I would say is--you know, what is the difference 
between going from a level two to a level one? Some of it is 
just time. It is just the increase and the opportunities. Not 
every battalion is going to--I mean, you will understand this. 
Not every battalion is going to progress at the same rate, and 
so some of it is just time and patience to give them an 
opportunity, because the will is there, the experience, and 
they do want to win, so----
    Mr. Langevin. Thank you.
    Mr. Wilson [presiding]. Thank you, General Lovelace, and at 
this time, Mr. Marshall of Georgia.
    Mr. Marshall. Thank you, Mr. Chairman.
    One of the struggles that we have had in Iraq is that our 
force is largely conventional. It is an unconventional fight. 
We were very successful at the conventional part of it. That 
was predictable, it lasted three weeks, and then it was fairly 
predictable that there would be a gradual deterioration, and 
then we would be in this awkward position of having a 
conventional force in a foreign country, constrained by our 
rules, and it is appropriate that we be constrained that way, 
and consequently, we have a very difficult time obtaining 
security and peace as it gradually worsened.
    My impression is that we are largely, our embeds--which I 
think is a great way to head, and I have argued for it for some 
time. I have also argued that we do not need more soldiers over 
there, we probably need fewer. But the embeds, it seems to me, 
are principally geared toward training a conventional force. We 
put uniforms on them. They all look alike. I guess we are 
teaching them to march in formation--I mean, just things like 
that--and yet, that conventional force has the same challenge 
we have, which is an unconventional one; it is a 
counterinsurgency. And so I am wondering what thoughts we have 
had about that kind of dilemma, you know, training this force 
for a counterinsurgency, for a policing action, and are we 
doing that?
    I guess I have a second question, and I would like each of 
you--you know, please do not say, I do not have that 
information right here, because it is just calling for your 
opinion. If we went and talked with those who are embedded with 
Iraqi forces, who have had experience working with the Iraqi 
forces, and we asked them whether or not the Iraqi--``In your 
opinion,'' you know, ``Officer, Sergeant''--you name it--``will 
Iraqi forces be ready to take over security of the country in 
about 15 months from now,'' what would their answer be?
    So those two questions. The nature of our training, are we 
just creating the same image that we have of ourselves and 
consequently setting up a conventional force for some real 
challenges? They have got advantages that we do not have. They 
speak the language; they can drink the water without getting 
sick; you know, they can sleep there; they can mix in with the 
population as long as we do not force them into uniforms and 
Humvees and, you know, those sorts of things. That is one 
question.
    The second question is what do you think those guys would 
say about the Iraqi forces being ready to do this in 15 months?
    General Lovelace. Sir, I will talk first.
    The answer to your first question is I would not say that 
just because we are putting them in uniform, that now they are 
a conventional force. When you look at the fact that the 3rd 
Infantry Division went in in 10/2003, went into Baghdad, that 
force came back about 15 months later, it was more than a--it 
was more than a high-intensity force. It was a--it had become--
it began to be a full-spectrum force, a force that was able to 
handle high intensity to include a counterinsurgency.
    When the 4th Infantry Division came back--and now they are 
just leaving, the 101st the same way, the 1st Cavalry that is 
going in now, the 25th Division--those units that are going 
back into the conflict are going back in with greater skill 
sets to be able to address a counterinsurgency. Those kinds of 
skill sets are being imparted on the force that they are 
working with because these transition teams--the training of 
the Iraqi Security Forces does not rest just narrowly in the 
transition teams. They are both internal and external teams, 
and like with General Flynn, we also inside the Army provide 
more forces to help train the Iraqi force than just those teams 
themselves, all right?
    And so I think that what is not seen necessarily is this 
broadening of--the broadening of the training and education 
that goes on. They have their own human intelligence (HUMINT) 
teams. That is something that we in the Army got rid of a long 
time ago. It became a vestigial function. Yet we now are now 
regrasping it, and we are building a capability very rapidly. 
They have it already resident in their force and are taking 
advantage of it, and that is a skill that you look for 
especially in a counterinsurgency.
    So, sir, what I would offer is, while we might be putting 
uniforms on them, they are still operating and understanding 
how to operate in a counterinsurgency, and for all the reasons 
that you just said----
    Mr. Marshall. Let me interrupt. I suspect that the other 
witnesses are going to be relieved of the responsibility of 
answering the first question.
    Could each of you very briefly--because I am about out of 
time--very briefly, what is your opinion, 15 months, if the 
embeds were asked will they be ready to do this in 15 months?
    General Lovelace. Sir, the answer to 15 months--I mean, I 
do not know. The embeds would say this?
    Mr. Marshall. Yes.
    General Lovelace. That the Iraqi Security Force eventually 
will be able to stand up, and----
    Mr. Marshall. Eventually. Fifteen months?
    General Lovelace. Sir, I do not--you are giving me----
    General Flynn. Sir, my honest answer to that is the enemy 
gets a vote in this, so I say it is event-driven rather than 
time-driven. So every action we take is going to have a 
reaction, and I think you have to take a look at it as event-
driven, and, again, we are not the only one driving the train 
here.
    General Ham. Sir, I would say the key factor for the Iraqi 
Security Forces would be the full support of their government. 
If they have got that, that will be the key move forward.
    And if I may, sir, just really quickly on the 
counterinsurgency training, we spend a lot of time with the 
instructors, the trainers, cycling through the 
Counterinsurgency Academy that General Petraeus and his staff 
run in Fort Leavenworth. We do counterinsurgency training for 
the teams, and the Iraqis run their own counterinsurgency 
training inside Iraq for the Iraqi leaders. So there is clear 
recognition that this is a different kind of fight and, 
increasingly inside Iraq, effort to train--to make sure the 
leaders understand the nature of the conflict in which they 
find themselves.
    Mr. Marshall. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you.
    Mr. Cooper of Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman.
    For anyone listening to this hearing, they are going to be 
wondering why the war is going so badly if our training is 
going relatively well. The Iraq Study Commission report is out 
today, and if you read pages six through nine, the report 
conveys quite a different impression of the training activities 
than the one we have heard of today.
    They say, ``Point, units lack leadership. Point, units lack 
equipment,'' and they point out that our entire appropriation 
for Iraqi forces is $3 billion, or less than we spend on our 
own troops every two weeks in Iraq. It goes on to say that 
units lack personnel, and it says, ``Units lack logistics and 
support,'' but other than that, everything is fine, and then it 
says that the police forces are doing even worse. But let me 
dwell on the personnel section for a second because I am 
wondering if essentially we have asked you to train the 
untrainable.
    It says here that Iraqi soldiers are on leave one week a 
month so that they can visit their families and take them their 
pay. Soldiers are paid in cash because there is no banking 
system. Soldiers are given leave liberally and face no 
penalties for absence without leave (AWOL). Unit readiness 
rates are low, often at 50 percent or less. So it sounds like 
the Iraqi forces can kind of come and go at will if there is no 
penalty for being AWOL.
    How do you help troops like that? That is a culture that is 
so different than anything we are accustomed to that I am 
worried that we have asked you to do an impossible job, and I 
appreciate your valor and energy in approaching it, but when I 
read in General Lovelace's testimony that they are working to 
reward our embeds, and that one idea is we are working to 
provide incentives or a choice of assignment after their embed 
assignment, is that a sufficient incentive for us to attract 
troops to what may be the most dangerous assignment going?
    There is an article today in the Financial Times that says, 
``The position is only going to become more hazardous.'' So I 
am just worried there is a disconnect here. You are working 
hard. You are trying to make it work. You have been given, 
possibly, an impossible assignment. The Iraq Study Group says, 
you know, it is a disaster that is not waiting to happen; it is 
already happening.
    How do you train troops who can come and go at will? My 
colleague's question, Mr. Taylor, he wondered whether we were 
effectively training militia members because, when they are 
gone, we do not know if they have, in fact, joined up with the 
enemy. You just disclosed to my colleague, Mr. Marshall that we 
do not apparently even track--or at least the numbers aren't at 
our fingertips, you know--absentee rates, where these folks 
are. It just sounds like it is in chaos, and the President's 
main strategy was stand up the Iraqis, and then we will stand 
down. Now the Iraq Study Group is saying stand them up, or we 
will leave.
    What is going on here? We surely have better answers than 
this from our great Pentagon, and I worry, as I say, that it is 
the fault not of our troops and generals like you, but of the 
civilian leadership who have asked you to do a possibly 
impossible job. Comments.
    General Flynn. Sir, I will take one shot at that.
    In my personal opinion, we are undertaking, I think, one of 
the largest scales--larger-scale foreign internal defense 
operations that we have ever done in our Nation's history, and 
it is not--it does not just have a military solution. Part of 
foreign internal defense is also the operations of civilian 
agencies as well as military agencies. What we are here today 
for--I come from the Training and Education Command, and you 
were right, sir. We do a very good job of training our U.S. 
military advisors, and I think they do a good job of training 
the forces that they have been assigned to train, but it is a 
difficult problem.
    It is much more than a military solution, and, you know, I 
think the men and women who we have doing this job are doing 
their part, and we are getting--we train them well, and they 
are prepared to execute their mission. But again, it is more 
than just the military aspect, there are other parts of it, and 
I do not feel that, you know, I have all of the details on that 
to give you the full answer to the question that you are 
asking.
    General Lovelace. Sir, I want to--this is not meant to be a 
flippant answer, but from what you just described, it could 
have described the Continental Army of this country over 200 
years ago. I mean, that is what it was. I mean, this was people 
who fought and had to go home and tend to crops. I mean--and 
those are the conditions under which we are asking. This is an 
army that does not have a personnel system. It does not have a 
pay system. It is a country that does not have checks to bank, 
and so we have to accept those conditions and work within them.
    I do not know what the answers are, but I know what the 
missions are that have been given us, and we were asked whether 
we thought we could be successful. Yes, the enemy does get a 
vote, and I realize there are some cultural differences here 
that we have to understand and accept and work within, but is 
there one at the end of the road that we can see success? We 
think there is.
    Mr. Cooper. But, General, in the Continental Army, we 
weren't worried that our soldiers were leaving to go fight for 
the British for a couple of weeks and then come back to our 
forces, and we weren't worried, you know, about a number of 
other things like--it is, I think, a false analogy.
    You need to tell us, you know, if you have been given an 
impossible job, because some marvelous generals have led this 
training effort. General Petraeus is one of the finest to ever 
put on a uniform. He is a gentleman who is a fine, patriotic 
American, but in reading this 3-1/2 years into the war about 50 
percent or less readiness rates, how many years will it take?
    Mr. Marshall's question, you know, can we guarantee, you 
know, the probability of--capability in 15 months? There is no 
assurance here. There is no--where is the traction?
    General Ham, I didn't want to interrupt you if you were 
reaching for the button.
    General Ham. Sir, I was just going to say one thing.
    I think, appropriately, the initial focus of the training 
and advisory mission was at the combat unit level, recognizing 
that logistics and sustainment and other systems are necessary 
for the formation and function of a good military. We are now 
building and embedding advisory teams at the highest levels of 
both the Ministry of Defense and the Ministry of Interior to 
help them build those kinds of systems so that you do not have 
to have a system where the soldiers have to go home, you know, 
a week out of every three to take their--to take pay home. But 
building those kinds of systems, an institutional army, 
building the institutional basis for the Ministry of Interior 
clearly will take some time, but we are, in fact, building the 
advisory teams and deploying the advisory teams to help the 
Iraqis build those systems.
    Mr. Cooper. I see that my time has expired. I thank the 
indulgence of the Chairman.
    Mr. Wilson. Yes. Thank you, Mr. Cooper.
    Ms. Bordallo of Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and good 
afternoon, gentlemen.
    As you know, I represent Guam, and our island has a proud--
a very proud national guard equipped with many skills from 
their civilian lives. Because of my particular passion and 
faith in the broad skills of the national guard personnel, I am 
puzzled by the fact that the military transition teams are 
utilizing only active duty personnel. It seems to me that 
national guardsmen bring an especially valuable skill set to 
serve as embedded officers because of their skills.
    Have you considered requesting particular types, active or 
reserve forces, for the mission, and can you comment on why we 
are focusing on only active duty forces for this mission? I 
guess whichever one of you would like to----
    General Flynn. Ma'am, I know on our transition teams we use 
both active and reserve forces.
    Ms. Bordallo. So you will be including them?
    General Flynn. We have in the past, yes, ma'am.
    Ms. Bordallo. Very good. All right.
    My second one----
    General Ham. Ma'am, we do in the Army as well. We have 
significant participation by Army Reserve and Army National 
Guard as members of the transition teams. It is not active duty 
only.
    Ms. Bordallo. Very good. Thank you.
    My second question, Major General Ham: You command a 
traditional infantry division, and you have been given a task 
to train and prepare these teams, but you have not been told to 
transform your division from a traditional division to a 
dedicated military transition team (MiTT) organization that 
will endure.
    Do you think that we should consider converting at least 
one Army division into an enduring, full-time and dedicated 
organization for training MiTT teams and for having these teams 
as permanent, organized elements of the unit; in other words, a 
conventional Special Operations unit, you might say?
    Why are we treating the need for training and organizing 
MiTT teams as a momentary requirement when all conventional 
wisdom indicates that future warfare will look like Iraq? And 
when the Army has finally embraced its role in Phase four 
peacekeeping and nation-building operations, do you believe the 
need for these teams will endure beyond Iraq?
    General Lovelace. It is me. Although you would like for him 
to answer, I----
    Ms. Bordallo. Yes, General Lovelace.
    General Lovelace. General Ham can answer it any way he 
wants. I am going to answer for the Army, ma'am.
    The pursuit of the 1st Infantry Division is a--we gave them 
a mission, and we gave the power of a post and an institution. 
We do not have on the backside an end-of-mission statement. He 
does not know, nor do the follow-on commanders know, when that 
will stop, and so what we wanted to do was embrace this.
    We have to now get after and analyze exactly what we want 
to have as an enduring aspect of this, and so it is not where 
we have not embraced it for the long term. We now have a 
solution set that allows us to now understand what now it needs 
to be, what kind of structure we might need to have inside the 
Army. We have the Special Forces, who have done the foreign 
internal defense admirably, and it is their forte, but we also 
have grown from that experience, and it has been a very 
meaningful experience inside the conventional force.
    And so I think that it is premature to say that we have 
not--I would say that we are--and I would think that you would 
want us to be as deliberate as we are in getting to some kind 
of final end state, and now I will let Carter answer.
    General Ham. Yes. I would say that the 1st Infantry 
Division is now specifically tailored for this mission. If you 
look at my division headquarters, it is not like any other 
division headquarters in the Army. It is tailored for this 
mission. Those functions that are necessary for full-spectrum 
operations are not all--not wholly resident, but we have other 
additions. For example, we have Special Forces officers and 
noncommissioned officers as part of our headquarters, not 
normally found in a division, but because of this unique 
mission, we have that. Similarly, the brigades that are 
conducting this training have been specifically organized for 
this mission.
    Ms. Bordallo. So then you feel it should endure?
    General Ham. I will defer to General Lovelace. I know the 
mission that--I feel comfortable that the mission that I have 
matches the organization of my unit for now.
    General Lovelace. Ma'am, whether we keep it at the 1st 
Infantry Division or not, I already know that we have every 
intention of modulizing his headquarters and the formations 
there at Fort Riley, Kansas, and so at some point we now have 
to understand institutionally where we will do this and how we 
want to embrace it for all of the reasons that you just 
indicated, because, as we are looking at this, we have to now--
just like I was speaking earlier, we talked about how we are 
trying to mature, develop the force, the leader skill sets. You 
know, what we want to do is be able to train on one of those 
skill sets that units need to bring into a force at the Phase 
four and five levels. Right.
    Ms. Bordallo. Well, I thank you very much for your answers, 
and I do feel, with the state of affairs the way they are in 
the world today, we should have an enduring force. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Ms. Bordallo.
    And we have a second round, and, Mrs. Davis, if you have 
any further questions.
    Ms. Davis of California. Thank you, Mr. Chairman.
    We have been at this for a while, and I think that we are 
doing a better job, as you described, in trying to train the 
advisors, but I still am kind of grappling with what is so 
different, and how can we say that greater effort is 
necessarily going to yield the kind of results that we are 
looking for right now? Is it numbers? Is it the escalation of 
training of our own advisors that is going to make that 
difference? Clearly they have been in there doing, you know, a 
remarkable job already. What is really different?
    General Ham. I will try first.
    I think there are a couple of factors, ma'am, that are at 
play. We are better now at the training of advisors and the 
preparation of advisors than we were at the start. We 
understand this; we understand this better, and as we gain 
experience, we are doing it. More importantly, the Iraqi units, 
I think, are, over time, gaining experience, and it really is 
their performance that will make the difference. This is 
experience that sometimes only time can bring.
    So I think we would all wish it to be faster, but we must 
also be careful not to make it so fast that we put units in 
harm's way before they are ready. But from my standpoint, we 
are continually improving the preparation and the training of 
those who will have this advisory mission, and I think that 
will help make a difference.
    General Lovelace. Ma'am, if I could, it is interesting as 
you ask the question, because we can put a unit together. We 
can take a unit and mobilize it from the reserves or a unit 
like in the Army and build a module formation and one year 
later deploy it, but the foundation for that is the wealth of 
experience in those leaders. It is the investments that you all 
have supported us in making in the soldiers, in the leaders, 
the experience, the training and all. That is the foundation.
    That foundation is not resident in this force that we are 
trying to now bring forth, and we have had some starts and 
stops. I mean--and we started off on a very humble beginning, 
like I said earlier, of about two battalions, and now this 
thing is moving. It is gaining momentum.
    That is why Mr. Marshall's question is very good. When is 
it? I do not know to put a time on it, but I know that we are 
moving this in the right direction toward success because the 
foundation is being laid. Not only are we training these units 
to be able to handle the full spectrum; specifically in this 
case, we are training them to be counterinsurgency forces. They 
are not being trained in order to now be able to be used beyond 
its own boundaries. We are also developing a Noncommissioned 
Officer Corps. We are trying to develop its own NCO Corps. We 
are trying to develop a military academy.
    So we are trying to lay the institutional pieces that are 
going to now continue to get it above a threshold level of 
existence, and so that is why Carter says time is patience, and 
it is hard right now to be patient. And so I think it gets a 
little bit--at your question a little bit, so----
    Ms. Davis of California. Do you see that effort beyond the 
military as well? I mean, that has got to be frustrating to 
feel that so much of this burden is on you.
    General Lovelace. Sure, I do.
    Ms. Davis of California. And where do you see that 
specifically where folks have stepped up to the plate and 
provided the other kinds of support that you need?
    General Lovelace. Right now everybody is--you know what the 
equation is--diplomatic information, military and economic--and 
right now, the large ``M'' in here, military, is what is 
looming, and the diplomatic and the economic and the 
information clearly have to catch up with us. And so--but that 
is understood, and so--and that interagency 
``sequentialization'' is what you are getting at. I mean, that 
is really what you are talking about, and that is what is 
necessary in order to have the long-term success.
    When Carter talks about the government, I mean we are 
mentoring the government, whether it is in the Interior or in 
the Department of the Ministry of Defense. All of those 
agencies are going to set the conditions so that the military 
can be successful, but even the government, it has only been 
minted for about two years now, you know, and it is going 
through the rights of passage. And so----
    Ms. Davis of California. I appreciate that.
    Thank you all.
    Mr. Saxton [presiding]. Mr. Skelton and then Mr. Marshall.
    Mr. Skelton. General you were speaking about the Government 
of Iraq. Is the government fully supporting this effort? It 
sounds to me like you gave a qualified comment a moment ago.
    General Lovelace. Sir, I am not sure--I am not sure exactly 
what comment you are referring to. The way I----
    Mr. Skelton. Well, is the government fully supporting this 
effort, or is it kind of supporting this effort?
    General Lovelace. Sir, all I was referring to--I was not 
qualifying the support as given the military.
    All I was saying is that in all of these ministries, as 
they are standing up, understanding what their responsibilities 
are and the maturity of their roles and missions and the 
development of what their vision is, that that will begin to 
set. As it codifies, it will start to set the conditions that 
will help this. And so that is why I was only saying, as we 
have gone through the transitional phases of the government and 
now have a government in being, it is embraced to set the 
conditions that we are talking about, sir.
    Mr. Skelton. I am glad Mr. Cooper, a moment ago, corrected 
you on comparing this group with the American Revolutionary 
Minuteman. I think you were comparing apples and oranges, and 
not that I am a great historian, but I think it would behoove 
you to take a look at the comparison. I think you will agree 
with Mr. Cooper and me.
    General Lovelace. Sir, I am not an historian either. I was 
only trying to reference----
    Mr. Skelton. General, I think every military person should 
be an historian, and I am dead serious. I will let it go at 
that, sir. I have one last question.
    The bottom line is are they winning? What proof is there 
that these people who are being trained and graduate from our 
training are winning on the battlefield?
    General Lovelace. Sir, that is a question that--and I will 
speak for the three of us. I mean, I would love to be able to 
answer that question for you. That is a question that really 
has to be asked of the people who are using and deploying those 
forces in theater, and I apologize for not being able to answer 
that question, sir, to your satisfaction.
    Mr. Skelton. That is the bottom line--when are you not--and 
if these folks are incapable of winning, we in Congress should 
know about it. The American people should know about it because 
this is serious business.
    Well, thank you very much, gentlemen.
    Mr. Saxton. We want to thank you for being here this 
morning. We have been at this for almost three hours, and so we 
thank you for your forthcoming answers and for your indulgence, 
and we look forward to seeing you again real soon. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:56 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            December 7, 2006

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 7, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32990.001
    
    [GRAPHIC] [TIFF OMITTED] 32990.002
    
    [GRAPHIC] [TIFF OMITTED] 32990.003
    
    [GRAPHIC] [TIFF OMITTED] 32990.004
    
    [GRAPHIC] [TIFF OMITTED] 32990.005
    
    [GRAPHIC] [TIFF OMITTED] 32990.006
    
    [GRAPHIC] [TIFF OMITTED] 32990.007
    
    [GRAPHIC] [TIFF OMITTED] 32990.008
    
    [GRAPHIC] [TIFF OMITTED] 32990.009
    
    [GRAPHIC] [TIFF OMITTED] 32990.010
    
    [GRAPHIC] [TIFF OMITTED] 32990.011
    
    [GRAPHIC] [TIFF OMITTED] 32990.012
    
    [GRAPHIC] [TIFF OMITTED] 32990.013
    
    [GRAPHIC] [TIFF OMITTED] 32990.014
    
    [GRAPHIC] [TIFF OMITTED] 32990.015
    
    [GRAPHIC] [TIFF OMITTED] 32990.016
    
    [GRAPHIC] [TIFF OMITTED] 32990.017
    
    [GRAPHIC] [TIFF OMITTED] 32990.018
    
    [GRAPHIC] [TIFF OMITTED] 32990.019
    
    [GRAPHIC] [TIFF OMITTED] 32990.020
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            December 7, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. If I may, more to that point, I know that, for example, 
when people apply for Special Forces training within our Army, they 
make a commitment to serve a while longer. When people apply for our 
nuclear schools in the Navy, they make a commitment to serve a lot 
longer because we are investing so much in them. This I would think 
would be sought after in that same way as those two specialties within 
our forces.
    So the question is is there any commitment that comes on the part 
of the Iraqi to get this kind of training? And if there is, who tracks 
it?
    General Lovelace. The Iraqi Army is an all-volunteer force. 
Enlistments are for 3 years. The approximate personnel breakdown is: 
7.5% officers; 19.l5% NCOs; and 73% enlisted soldiers.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. On the scale of one to four for Iraqi Security Force 
readiness assessments, what are the biggest challenges right now 
preventing units from moving to--from a two rating, where they are 
operating in the lead with assistance, to a level one, where they are 
operating completely independently?
    General Lovelace. Logistics and leadership are the biggest 
challenges facing Iraqi Army units.

                                  <all>

</pre></body></html>
